<html>
<title> - THE NEED FOR LEADERSHIP TO COMBAT CLIMATE CHANGE AND PROTECT NATIONAL SECURITY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                        THE NEED FOR LEADERSHIP
                      TO COMBAT CLIMATE CHANGE AND
                       PROTECT NATIONAL SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             APRIL 9, 2019
                               __________

                           Serial No. 116-14
                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      
      
      
                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-439 PDF                 WASHINGTON : 2019                          
                        
                   
                   
                   
                   
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
    Susanne Sachsman Grooms, Deputy Staff Director and Chief Counsel
          Elisa LaNier, Chief Clerk and Director of Operations
                Russell Anello, Chief Oversight Counsel
                          Amish Shah, Counsel
                     Joshua Zucker, Assistant Clerk
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                        
                        
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on April 9, 2019....................................     1

                               Witnesses

Mr. John F. Kerry, Former Secretary, U.S. Department of State
    Oral Statement...............................................     8

Mr. Chuck Hagel, Former Secretary of Defense and Senator
    Oral Statement...............................................    11

The written statements for witnesses are available at the U.S. 
  House of Representatives Repository: https://docs.house.gov.

                           Index of Documents

The documents entered into the record during this hearing are 
  listed below, and are available at: https://docs.house.gov.
* United Nations Report, submitted by Rouda; ref. page 4
* AAAS Report, submitted by Rouda; ref. page 4
* Letter to President Trump from 57 senior national security 
  officials, submitted by Mr. Hagel; ref. page 13
* Sea level rise modeling handbook from the United States 
  Geological Survey, submitted by Massie; ref. page 25
* The CO2 Deficit by Bonne Posma and Andrew Kenny, submitted by 
  Massie; ref. page 29
* Climate Change and the Syrian Civil war revisited, Elsevier,
* How Climate Change is Fueling the U.S. the U.S. Border Crisis, 
  The New Yorker, submitted by Ocasio-Cortez; ref. page 54
* Trump's New Climate Czar: Carbon Dioxide Has Been Treated Just 
  Like `Jews Under Hitler' Vanity Fair, submitted by Wasserman 
  Schultz; ref. page 58
* Putting the `con' in consensus; Not Only is there no 97 per 
  cent consensus among climate scientists, many misunderstand 
  core issues, Financial Post, submitted by Grothman; ref. page 
  61
* Key Greenland glacier growing again after shrinking for years, 
  NASA study shows, Associated Press
* Greenland's fastest-shrinking glacier growing again, UPI

 
                        THE NEED FOR LEADERSHIP
		     TO COMBAT CLIMATE CHANGE AND
                       PROTECT NATIONAL SECURITY

                              ----------                              


                         Tuesday, April 9, 2019

                          House of Representatives,
                         Committee on Oversight and Reform,
                                                   Washington, D.C.

    The committee met, pursuant to notice, at 10:03 a.m., in 
room 2154, Rayburn Office Building, Hon. Elijah Cummings 
(chairman of the committee) presiding.
    Present: Representatives Cummings, Maloney, Norton, Lynch, 
Cooper, Connolly, Krishnamoorthi, Raskin, Rouda, Hill, 
Wasserman Schultz, Sarbanes, Speier, Kelly, DeSaulnier, 
Plaskett, Khanna, Gomez, Ocasio-Cortez, Pressley, Tlaib, 
Jordan, Amash, Gosar, Massie, Meadows, Hice, Grothman, Comer, 
Cloud, Gibbs, Higgins, Norman, Roy, Miller, Green, Armstrong, 
and Steube.
    Chairman Cummings.
    [Presiding.] The committee will come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any time.
    This full committee hearing is convening to review the need 
for leadership to combat climate change and protect national 
security. I now recognize myself for five minutes to give an 
opening statement.
    Today the committee is honored to have two distinguished 
witnesses, former Secretary John Kerry and former Secretary of 
Defense Chuck Hagel. We welcome both of you.
    In addition to serving as key members of the Cabinet, both 
Secretary Kerry and Secretary Hagel served for many years in 
the U.S. Senate, and both served with great distinction. They 
also served in our armed forces, and they both served with 
distinction in combat.
    Secretary Kerry and Secretary Hagel, on behalf of the 
committee and on behalf of a grateful Nation, I thank you for 
your service. I also thank you for joining us today to discuss 
the threat that climate change poses to our country and our 
national security.
    Just a few weeks ago, record-breaking floods forced parts 
of Offutt Air Force Base in Nebraska under as much as eight 
feet of water. Secretary Hagel, as you know very well, Offutt 
Air Force Base is home of the U.S. Strategic Command, and 
although they are used to floods, this year was nothing like 
they have ever seen before.
    Last September, Hurricane Florence caused massive damage to 
Camp Lejeune in North Carolina. As a result, the Commandant of 
the Marine Corps, General Robert Neller, warned that, and I 
quote, ``One-third of the combat power of the Marine Corps is 
degraded and will continue to degrade.'' One-third.
    For several decades our national security leaders, 
including the two distinguished men sitting at our witness 
table, have been warning that we need strong and decisive 
leadership to combat climate change and to plan for national 
security implications we are going to face. These warnings have 
come from Democratic administrations and Republican 
administrations. In fact, in the most recent National Climate 
Assessment issued under the Trump administration, 13 Federal 
agencies, more than 300 experts from around the country, 
warned, and I quote, ``The Earth is now changing faster than at 
any point in the history of our modern civilization, primarily 
as a result of human activities.''
    The assessment found that our response to this crisis so 
far has not been sufficient to avoid, and I quote, 
``substantial damages to the United States economy, 
environment, and human health and well-being over the coming 
decades.''
    In addition, earlier this year the President's Director of 
National Security Dan Coats warned that climate change is 
[quote]``likely to fuel competition for resources, economic 
distress, and social discontent through 2019 and beyond.''
    Director Coats also warned that heat waves, droughts, and 
floods driven by climate change are, and I quote, ``increasing 
the risk of social unrest, migration, and interstate tension in 
countries such as Egypt, Ethiopia, Iraq, and Jordan.''
    Unfortunately, instead of mobilizing efforts to fight 
climate change, President Trump has attacked the science, 
weakened environmental protections, and undermined United 
States leadership abroad. In fact, when his administration 
issued the National Climate Assessment last year, he stated, 
and I quote, ``I do not believe it.''
    The title of today's hearing, ``The Need for Leadership to 
Combat Climate Change and Protect National Security,'' is quite 
appropriate. I understand that there may be differences of 
opinion on how we should respond, but there should be no 
uncertainty about whether we should respond. If the President 
disagrees with the Paris Accord, that is his prerogative. But 
what he is proposing instead will not work.
    According to press reports, he is reportedly considering 
creating a White House panel to relitigate whether climate 
change is real. A panel like that would be a huge step backward 
for our Nation and indeed the world. The true measure of 
leadership is whether we leave the world better for our 
children and our grandchildren and those yet unborn than we 
found it.
    Each day that we fail to act on climate change, we are 
risking the health and the security of future generations. For 
these reasons, our committee is making climate change a top 
priority for this Congress. Today the committee is making a 
referral to our Subcommittee on the Environment, which is 
chaired by the distinguished gentleman from California, 
Representative Rouda, to launch a series of hearings that will 
take advantage of our committee's unique and broad jurisdiction 
over all Federal agencies as well as over the Executive Office 
of the President, to identify opportunities for advancing 
concrete solutions.
    So I look forward to hearing from our witnesses, and now I 
yield to the distinguished ranking member, Mr. Jordan. Sorry. I 
yield to the distinguished gentleman, Mr. Rouda.
    Mr. Rouda. Thank you, Chairman Cummings, and thank you for 
allowing me to give a statement and calling this very important 
meeting. I also want to thank Secretary Kerry and Secretary 
Hagel for testifying before our committee today and for your 
decades of public service.
    As chair of the Subcommittee on Environment, I appreciate 
the referral of Chairman Cummings to examine one of the most 
defining and imperative moral issues of our time. Climate 
change poses an enormous threat to our environment, our 
national security, our economy, and our long-term health. 
Climate change can no longer be thought of as something that 
may or may not impact us someday.
    The effects of climate change are already being felt today. 
Just ask the hurricane survivors in Puerto Rico and the U.S. 
Virgin Islands. You can also ask my fellow Californians where 
two most recent wildfire seasons were the deadliest in the 
state's history, taking the lives of more than 100 fellow 
Americans and costing approximately $24 billion in damages.
    I want to echo Chairman Cummings when I say that the debate 
that I hope we have here today is about what we should do to 
mitigate the effects of climate change over the next century, 
not whether climate change is actually occurring and whether 
human activity is the leading cause. The science on climate 
change is settled, and we are past the point where this is an 
issue of debate.
    A few years ago, the American Association for the 
Advancement of Science released a report showing that 97 
percent of climate scientists agree that climate change is 
happening and that it is being caused by humans. I want to read 
one passage from the report because I want it to hit all of you 
the way it hit me when I read it.
    ``The science linking human activities to climate change is 
analogous to the science linking smoking to lung and 
cardiovascular diseases. Physicians, cardiovascular scientists, 
public health experts, and others all agree smoking causes 
cancer.''
    ``And this consensus among the health community has 
convinced most Americans that the health risks from smoking are 
real. A similar consensus now exists among climate scientists, 
a consensus that maintains that climate change is happening, 
and that human activity is the cause.''
    So let's let that sink in. The consensus on whether climate 
change is real is equivalent to the consensus on whether 
smoking causes cancer. I would wager that every single person 
in this room and the overwhelming majority of Americans trust 
the science on smoking, as they should. So why are there people 
still contesting the science on climate change?
    As Chairman Cummings points out, the Trump administration's 
own officials are ringing the alarm on the serious consequences 
of inaction on climate change. But it does not stop there. 
There have been other calls to action that cannot be ignored.
    The United Nations Intergovernmental Panel on Climate 
Change synthesized the work of thousands of scientists, 
including the top American scientists, into its Fifth 
Assessment Report. They concluded that the rate of sea level 
rise today is larger than at any point in 2,000 years. Oceans 
have also become 26 percent more acidic due to the influx of 
carbon dioxide into the water since the Industrial Revolution.
    Mr. Chairman, I would like to enter into the official 
report record both a United Nations Report and the AAAS report 
right here.
    Chairman Cummings. Without objection, so ordered.

    [The United Nations Report and the AAS information are at: 
docs.house.gov.]

    Mr. Rouda. These facts are scary, and they should be. These 
are clear, pronounced, historical trends. Do we think this is 
just going to stop? No. It is only going to get worse, and 
working families, farmers, homeowners, everyone will continue 
to suffer.
    This afternoon, the Subcommittee on Environment, which I 
chair, will launch a series of hearings and investigations on 
climate change. Through this work I will hold out a standing 
invitation to all of my colleagues. Join us. Join us in 
devising practical, economical solutions to combat climate 
change. We know that it makes economic sense to incentivize the 
development and production of alternative energy sources; to 
heavily invest in electric vehicles, as General Motors has 
recently done; and make infrastructure more energy efficient to 
protect our air and water from pollution caused by carbon 
emissions.
    We may not all agree on the best policies to achieve these 
goals, but I look forward to these debates over the upcoming 
months and years because the best policies are forged through 
respecting the diversity of American interests, listening to 
farmers, auto workers, coal miners, rural and urban residents, 
children and young adults, lower-income people, Republicans, 
Democrats, and Independents.
    But we do not have time to waste. The White House has 
chosen not to lead on this issue, so it is up to us in Congress 
to do so. We have a tough problem that needs solving, and we 
will rise to the challenge. We must say to the world: America 
will lead.
    Thank you, Mr. Chairman. I yield back.
    Chairman Cummings. Thank you very much.
    Now I yield 10 minutes to the distinguished ranking member, 
Mr. Jordan.
    Mr. Jordan. I thank the chair.
    The first three months of the 116th Congress, the 
Democrats' focus has been on one thing: attacking the 
President. Not addressing the emergency on the border, not 
addressing the $22 trillion debt or the opioid crisis, but a 
relentless pursuit and focus on the President.
    Think about last week. In one week's time, the chairman of 
the Ways and Means Committee says, ``I want the President's tax 
returns'' for purely political reasons. The chairman of the 
Judiciary Committee says to Mr. Mueller--or to the Attorney 
General, ``Send us the Mueller report,'' even though the 
Attorney General has said he is going to give it to us in a 
matter of days. Then, of course, this committee sends letters 
to the President's accountant and his bank seeking personal 
business records for the last 10 years, and they did that based 
solely on the testimony of Michael Cohen, who, oh, by the way, 
was also in the news last week. That is right, the first 
announced witness of this Congress, the first big hearing of 
this committee, a guy who is going to prison for lying to 
Congress, who came in front of this committee and lied to us 
seven times, and we did nothing about it. And because we did 
nothing about it, his lawyers send a letter to Democrats last 
week and say, ``Shazam. Michael Cohen has found a new hard 
drive. Can you help keep him out of prison so he can come back 
in front of us and lie some more?''
    I mean, you cannot make this stuff up. This is truly 
unbelievable. I am not sure most Americans could name any 
legislative initiative of the Democrats this Congress, with the 
possible exception of one. Maybe they can name one: the Green 
New Deal. And my guess is a lot of Americans could name it 
because it is so radical. And if you do not believe me, just 
read about the Green New Deal in the launch document, the 
overview document from Thursday, February 7, at 8:30 a.m., the 
document that talks about the Green New Deal.
    Today's hearing, Mr. Chairman, is titled, ``Leadership to 
Combat Climate Change,'' certainly a worthy objective. And I am 
not a scientist, do not pretend to be one. And while I respect 
each of our witnesses today and I appreciate their service to 
our great country, they are not scientists either. In fact, I 
do not know if there are any scientists on our committee. The 
closest thing, the closest one is the gentleman from Kentucky, 
Congressman Massie. He has got two engineering degrees from 
MIT, has over two dozen patents, successful business owner, 
probably the greenest guy in Congress, drives an electric car, 
powers his home and farm with solar panels and batteries. I 
hope we hear a lot from Mr. Massie. But I am not sure this 
hearing is about getting truth from people like Congressman 
Massie. I think it is about the Green New Deal and the 
regulations, the central government planning, and the politics 
that come with it.
    By the way, Mr. Chairman, the Green New Deal is not new. 
Not new at all. During the previous administration, the Obama 
Administration, they had the Department of Energy Loan 
Guarantee Program. You all remember this? Millions and millions 
of taxpayer dollars went to 22 companies, average credit rating 
double B minus, almost all of them went belly up. Almost all of 
them went bankrupt with taxpayer money. You remember. Solyndra, 
Beacon Power, Abound Solar, Fisker Automotive--all of them got 
our constituents' tax dollars. All of them went bankrupt.
    The Green New Deal is not new, but it is devastating. It 
would be devastating to people who live in Mrs. Miller's 
district in West Virginia to Mr. Comer's district in Kentucky, 
hardworking miners. It would be devastating for people in Mr. 
Higgins' state, oil and gas workers, Mr. Armstrong's state, 
North Dakota. And I think it would be devastating for middle-
class families in all our districts all across this great 
country, driving up the cost of energy which, therefore, drives 
up the cost of all kinds of other goods and services.
    You know what I also think is interesting, Mr. Chairman? 
The Green New Deal has 91 Democrat cosponsors in the House, 13 
Democrat cosponsors in the Senate. Seven Democratic 
Presidential candidates have endorsed it. But when it came time 
to vote on it, when they had a vote on it, zero--zero--people 
supported it. You would think if everything is going to go bad 
in 12 years, as people have been saying, somebody would have 
voted for it. No one voted for it.
    So I hope the focus today is actually on the issue that we 
are supposed to be talking about and not on politics and not on 
attacking the President like we have done for the first three 
months of this Congress.
    Mr. Chairman, I would yield to the gentleman from Kentucky, 
the ranking member of the Subcommittee, Mr. Comer.
    Mr. Comer. Thank you, Ranking Member Jordan.
    Today my Democratic counterparts on this committee will 
argue that climate change is an imminent threat to our national 
security, among other alarmist notions. Some members of this 
committee have said climate change is ``our World War II.'' 
They have said that, ``The world is going to end in 12 years if 
we do not address climate change.'' You get the picture.
    And what do they propose as their solution to combat this 
imminent threat? The Green New Deal. This outlandish proposal 
and all proposals that resemble it are an affront to the 
citizens and the economy of this Nation, particularly rural 
Americans.
    Coal mining is a way of life in many corners of rural 
America, including my district. After more than two centuries 
of commercial mining operations, Kentucky coal remains an 
important component of the Commonwealth's economy and America's 
energy portfolio. Kentucky was the fourth highest coal producer 
in the U.S. in 2016, mining 42.9 million tons of coal. In that 
same year, coal mines directly employed more than 6,600 
Kentuckians, and mining directly contributed billions of 
dollars to Kentucky's economy. Both the first and second 
largest coal-producing counties, Union and Ohio counties, are 
in my district. I am incredibly concerned about this or any 
proposal that aims to eliminate this entire way of life and an 
economic engine for my district and the Commonwealth of 
Kentucky as part of their answer to saving the planet.
    Alarmist proposals like the Green New Deal would devastate 
mining communities, driving out good-paying jobs, and ship coal 
production to countries like China that have much worse 
environmental regulations and standards, likely increasing 
global greenhouse gas emissions in the process. Coal is one of 
the most reliable energy sources in the U.S. and generates base 
power that prevents rolling blackouts when wind and solar fall 
short in extreme weather. Our coal miners have fought hard to 
keep their jobs despite excessive and burdensome regulations 
and have targeted their livelihood. It is far past time that 
Washington stop picking winners and losers and stop seeking to 
eliminate an entire way of life.
    And while I could speak volumes on how American farmers and 
cattlemen would also suffer from the Green New Deal, I will 
just briefly touch on it for time's sake.
    Farmland covers 54 percent of the total acreage in 
Kentucky. With 2.2 million head of cattle, Kentucky is the 
leading cattle producer east of the Mississippi River. Despite 
all the progress we have made on the environmental front in 
recent decades, it is amazing that some policymakers seem to 
think targeting U.S. beef producers and consumers will make a 
huge impact on global emissions. U.S. beef producers now have 
one of the lowest carbon footprints compared to our global 
counterparts. Harming our agriculture sector in the pursuit of 
this irrational plan is ill-informed and misguided.
    The bottom line is touting the Green New Deal as a 
realistic plan for the future is short-sighted and reckless. Of 
course, we all want clean water and clean soil. I as a farmer 
know firsthand how important this is in producing food, feeding 
our citizens, and safeguarding the well-being of our land. But 
we must use caution when considering a climate change and 
environmental reform deal that is rooted in socialism.
    The Green New Deal paints a dark picture for rural America 
and takes our country in a direction far from the one we know. 
I urge this committee to truly consider the impact that radical 
climate change proposals have on rural America, particularly 
the mining and farming communities that feed, fuel, and clothe 
all of us.
    I yield back to the ranking member from Ohio.
    Mr. Jordan. I yield to the gentlelady from West Virginia.
    Mrs. Miller. Thank you, Ranking Member Jordan.
    My home state of West Virginia is abundant in natural 
resources. From the hills to the hollers, we are proud that the 
coal, the natural gas, and oil that our state has fueled the 
world and promotes a prosperous economy throughout the United 
States. However, during his administration, President Obama 
took drastic steps that decimated the coal industry. These 
extreme anti-coal policies shuttered mines, left coal workers 
without jobs, and collapsed the surrounding economies. The 
machine shops, the hardware stores, clothing and grocery stores 
as well as restaurants were all shuttered. The joblessness led 
to great hopelessness as well as people leaving our state. If 
you go to Charlotte, you will see a lot of proud West 
Virginians. My state is still trying to recover from the 
population losses to this day.
    These policies implemented by the Obama Administration led 
to hopelessness and despair and helped to give rise to the 
opioid crisis. But our West Virginians are proven to be 
resilient. President Trump has given our energy economy the 
tools it needs to get back on track. That is why I worry about 
proposals from my colleagues across the aisle. We all live on 
this Earth, and we all breathe the same air. But my colleagues 
from the other part of the country will never be able to 
understand what the energy industry means to my state.
    Legislation like the Green New Deal is a one-size-fits-all 
approach that poses an imminent threat to the economy of my 
state, jobs of my constituents, and the heartbeat of West 
Virginia. This proposal is short-sighted and is lacking in 
common sense. Simply stated, it has rebranded the war on coal, 
oil, and gas, and it is a blueprint for disaster.
    I yield back my time.
    Chairman Cummings. Thank you very much.
    Now I want to welcome our former Senate colleagues, the 
Honorable John Kerry and the Honorable Chuck Hagel, who both 
began their service to our country in the military and 
continued their service as Secretary of State and Secretary of 
Defense, respectively.
    I will begin by swearing you in. Would you stand, please, 
and raise your right hand? Do you swear or affirm that the 
testimony you are about to give is the truth, the whole truth, 
and nothing but the truth, so help you God?
    Let the record show that the witnesses answered in the 
affirmative. I want to thank you very much. The microphones are 
very sensitive, so please speak into them directly. We really 
want to hear what you have to say. Without objection, your 
written statement will be made a part of the record.
    With that, Secretary Kerry, you are now recognized to give 
an oral presentation of your testimony.

STATEMENT OF HON. JOHN KERRY, FORMER SECRETARY, U.S. DEPARTMENT 
                            OF STATE

    Mr. Kerry. Well, thank you very much. Mr. Chairman, thank 
you very much. Mr. Ranking Member Jordan, thank you very much. 
It is a privilege to be here. Opening Day in Boston, we are not 
doing so well, so maybe it is Okay to be here.
    In keeping with the telling of the truth, I had forgotten 
what fun politics is in Washington.
    [Laughter.]
    Mr. Kerry. Mr. Chairman, thank you not only for your 
leadership on climate change, but even more thank you for your 
stewardship of a committee which, at its best, demands 
accountability of those in positions of power on behalf of the 
American people.
    Chairman Cummings, Ranking Member Jordan, and all the 
members of the committee, thank you for inviting me and my good 
friend, Secretary Hagel, Chuck. He and I have done a lot of 
things together, and I think we have proved that we used to be 
able to do that here in Washington. It would be great if we 
could get back to bipartisan effort on these kinds of issues. 
We are delighted that you saw fit to invite back not one but 
two recovering Senators.
    I think most on this committee would agree that there is a 
long list of issues where, despite the advice and warning of 
experts, Washington remains gridlocked. But at least on most of 
those issues, no one can credibly deny the magnitude of the 
challenge, let alone the existence of the problem.
    Regrettably, the same cannot be said about climate change. 
Think about it. During World War II, America would never have 
tolerated leadership that denied Hitler's aggression. During 
the cold war, no one in public life would have been taken 
seriously if they did not offer a policy to counter the 
Soviets. And after 9/11, it would have been disqualifying to 
deny that al Qaeda knocked down the Twin Towers.
    Facts are facts. But here we are in 2019 where too many in 
positions of responsibility still call climate change a 
``hoax'' and advocate policies that will only make the reality 
of climate change worse.
    The science has proven that we do not have time to waste 
debating alternative facts, only to be forced then to invest 
years trying to reestablish trust in the real ones. We are here 
for our country. We are not here for our parties.
    Just the other month, we learned that the White House is 
planning to convene a task force, apparently working behind 
closed doors--not sure why--to determine ``whether climate 
change is a national security threat.'' My friends, we already 
know what the outcome will be. It is a council of doubters and 
deniers from what has been leaked from the White House, 
convened to undo a 26-year-old factual consensus, Republican 
and Democrat, liberal and conservative, that climate change is 
a national security threat multiplier.
    In fact, I am afraid this effort may be a scheme to pretend 
that there are two sides to an issue already long since 
settled. In examining the facts regarding this issue, you do 
not have to accept my and Secretary Hagel's word for it. The 
designation of climate change as a security issue was not 
settled by President Obama's NSC, my state Department, or 
Secretary Hagel's Pentagon. No. It was settled 28 years before 
that by a Republican President and a team that included Jim 
Baker, Dick Cheney, Brent Scowcroft, Colin Powell, and Bob 
Gates.
    In 1991, the Bush Administration assessed in its National 
Security Strategy that threats like climate change, which 
``respect no international boundaries,'' were already 
contributing to political conflict. Each of his successors 
included climate change in their national security strategies. 
Even after the 9/11 terrorist attacks, President George W. 
Bush's administration made room in the 2002 National Security 
Strategy to warn of ``dangerous human interference with global 
climate.''
    There is not a scintilla of accepted science or bipartisan 
military expert analysis that four consecutive administrations 
were wrong. There is no event and certainly no scientifically 
based event or suggestion that the proposition ought to be 
reexamined. The factual basis of climate change's threat 
originated not with politicians but with the national security 
community, including the intelligence community.
    Eleven retired military leaders constituting the Military 
Advisory Board at CNA, a naval think tank in Arlington, 
described climate change in 2007 ``a threat multiplier for 
instability.'' Seven years later, 16 retired flag officers 
representing all branches of the military implored Americans to 
understand the severity of ``a salient national security 
concern because time and tide wait for no one.''
    Instead of convening a kangaroo court, the President might 
want to talk with the educated adults he once trusted enough to 
fill his top national security positions. Director of National 
Intelligence Daniel Coats has reported that climate change 
would increase the risk of social unrest, migration, interstate 
tension in countries such as Egypt, Ethiopia, Iraq, and Jordan. 
Then-Defense Secretary Jim Mattis told the Armed Services 
Committee this last year, ``Climate change is impacting 
stability in areas of the world where our troops are operating 
today.'' These officials were not making back-of-the-envelope 
projections about a distant, dystopic future.
    Climate change is already impacting national security. The 
American Security Project, ASP, is an organization of security 
experts, including retired admirals and generals, flag 
officers, who spent their careers in service not to a President 
or a party but the country above all else. It also includes 
former United States Senators, both Democrat and Republican, 
Governors, other public officials. The experts at ASP note that 
climate change is what we call ``a ring road issue,'' meaning 
that climate change affects all the other threats. It will 
change disease vectors. It will drive migration. And these 
changes in turn could affect state stability and harm global 
security as a consequence of that.
    Lieutenant General Castellaw and Brigadier General Adams of 
the American Security Project know the ground truth. They 
write, ``Even as our comrades on active duty in the U.S. 
military forces plan for the impact of the rise in sea levels 
in places like Bangladesh, the retreat of ice in the Arctic, 
and extreme storms in places like the Philippines, Members of 
Congress and others continue to deny the obvious.''
    The truth is that climate change is real and poses 
significant challenges for our Nation's security. As Secretary 
of State, I visited Naval Station Norfolk. It is the biggest 
naval installation in the world, and the land that houses it is 
literally sinking. In fact, sea levels on the east coast are 
rising twice as fast as the global average thanks to uneven 
ocean temperatures and geology.
    The admiral in charge of the fleet and the base commander, 
Mr. Chairman, made clear what further sea level rise could mean 
for Norfolk or for the U.S. Navy fleet, 20 percent of which is 
home-ported nearby. Willful denial will not change the fact 
that our military readiness will be degraded when the 
permafrost our Alaskan bases are built on begins to thaw out.
    And it does not end with military impacts. Climate change 
did not lead to the rise of the terrorist group Boko Haram in 
Nigeria, but the country's severe drought and the government's 
inability to cope with it exacerbated the volatility that 
militants then exploited to seize villages, butcher teachers, 
and kidnap hundreds of innocent girls.
    Climate change did not cause the tragedy of the war in 
Syria. A prolonged historic drought, however, killed off such a 
vast proportion of the livestock of Syria that more than a 
million people were forced to migrate to Damascus and its 
environs, contributing greatly to the violence in that country.
    The prospect of a more arid climate throughout the Middle 
East and parts of Asia will increasingly strain the most 
essential resource of all: water. We have already seen tension 
rise around the basins of the Nile, Central Asia's Indus River, 
and the Mekong in Southeast Asia. Areas facing unrest, 
instability, and weak governance are breeding grounds for 
violent extremism. Climate change will only exacerbate 
migration in places already enduring economic, political, and 
social stress. If people think the migration on Europe today is 
a challenge to the politics of Europe, wait until you have much 
of the Middle East and Northern Africa knocking on Europe's 
door because of the inability to grow food and live day to day 
in 120-degree heat.
    Mr. Chairman, the only people cheering the President's 
apparent attempt to erase climate change from U.S. national 
considerations live in Beijing and in Moscow. China and Russia 
have for years been mapping the resource competition, military 
implications, and geostrategic challenges that climate change 
will present in an ever-changing, climate-impacted Arctic. What 
a gift to them if we stop making our own assessments because we 
have our heads buried in the sand while their eyes are on the 
tundra.
    Now, I know legislating on climate change is not easy. I 
was charged with the responsibility in the Senate when we were 
in the majority of leading the last serious bipartisan effort 
with Lindsey Graham and Joe Lieberman when we tried to pass 
legislation. I lived the difficulties. But I know we will never 
get there at all if we do not listen to our generals and 
admirals, our scientists and our intelligence community. We can 
spend the next two years debating whether two plus two equals 
five. But it would mean someday a young American in uniform is 
going to be called on to go to harm's way because truth lost 
out to talking heads and alternative facts.
    So let us debate how to address the climate national 
security threat, not whether it is real.
    Thank you, Mr. Chairman.

    Chairman Cummings. Thank you very much.
    Secretary Hagel.

STATEMENT OF HON. CHUCK HAGEL, FORMER SECRETARY OF DEFENSE AND 
                            SENATOR

    Mr. Hagel. Chairman Cummings, Ranking Member Jordan, 
members of this committee, thank you for inviting Secretary 
Kerry and me to testify today about the threats posed by 
climate change to our national security.
    I am proud to be sitting next to my friend and former 
Senate and Cabinet colleague, John Kerry. He has been a long-
time leader on this issue and understands it very well. John 
and I have shared many conversations about climate change over 
many years. We are both founding members of the American 
Security Project, an organization that has led research into 
the national security implications of climate change.
    In my public career, both in the Senate, at the Department 
of Defense, and as co-chairing the President's Intelligence 
Advisory Board, preparing for climate change was an important 
part of my work. In 1997, the Senate passed the Byrd-Hagel 
resolution which laid out the conditions for Senate support for 
an international agreement on carbon emissions. The Senator 
Byrd referred to in the Byrd-Hagel resolution was Senator 
Robert Byrd, the late Senator Robert Byrd, of coal-producing 
West Virginia, who took this issue very seriously. Later that 
year, I led the Senate delegation to the protocol negotiations 
in Kyoto where Secretary Kerry was also a member of the 
delegation.
    In 2007, I led the effort to require a national 
intelligence assessment of security impacts of climate change. 
As Secretary of Defense, I issued the Department's first Arctic 
Strategy in 2013 highlighting how the military would respond to 
melting ice and other challenges, as well as the Department's 
first climate adaptation road map detailing how to prepare for 
climate change.
    I supported the 2015 Paris Peace Climate Agreement that 
Secretary Kerry negotiated because it met the requirements of 
the Byrd-Hagel resolution, ensuring that all nations--all 
nations--take measurable, reportable, and verifiable steps to 
reduce emissions.
    While climate science readily and rapidly advanced over my 
decades in public service, my priorities remained the same: Any 
actions to address climate change must protect America's 
economy, our environment, and our national security. My views 
were always informed by science.
    As scientists reduced uncertainty about climate change over 
the last two decades, it became clear, very clear, that the 
U.S. must implement policies to address the challenge, prepare, 
because climate change is threatening our economy, our 
environment, and our national security.
    Dating back to the George H.W. Bush Administration in 1992, 
as Secretary Kerry has noted and Chairman Cummings has noted, 
intelligence and national security professionals were telling 
us that climate change posed a direct threat to U.S. national 
security. This is 1992. This work has been informed by U.S. 
scientists telling us that a melting Arctic, more frequent 
droughts and floods, and extreme weather are all examples of 
the changing climate in the United States and the world.
    Changing weather patterns threaten our national security 
through its impacts on military infrastructure, readiness, 
disaster response, and the economy. We now do not need to wait 
for more sophisticated climate models to project the security 
consequences of climate change. We know what they are. The 
impacts of climate change are clearly evident today.
    As members of this committee know so well, this past year's 
extreme weather has seriously affected our military readiness. 
In September, Hurricane Florence decimated Camp Lejeune and 
caused damage to Fort Bragg and military installations across 
North Carolina, as Congressman Meadows knows so well.
    A few weeks later, Hurricane Michael leveled Tyndall Air 
Force Base in Florida's Panhandle, causing damage to 17 
expensive F-22s and major structural damage throughout that 
base. Last month, floods in my home state of Nebraska, as 
Chairman Cummings noted, severely damaged the runway and 
infrastructure at Offutt Air Force Base, home of U.S. Strategic 
Command. As a Nebraskan, spring floods are no surprise. 
However, these floods were the most extreme ever--extreme, more 
extreme than anything we have seen. We saw record-setting 
flooding along the Missouri, Platte, and Elkhorn rivers and 
across the Midwest. Estimates of the cost of these disasters to 
the military are significant. The Marines have requested $3.6 
billion to rebuild North Carolina while the Air Force has 
requested an initial $5 billion for Tyndall and Offutt.
    While the bases may rebuild over time and with money, the 
loss of training and readiness cannot be recovered. In a 
February letter to the Secretary of the Navy, General Neller, 
Commandant of the U.S. Marine Corps, wrote that because of the 
damage from the storms, the combat readiness of Marine 
Expeditionary Force, ``One-third of the entire combat power of 
the Marine Corps has been degraded and will continue to 
degrade.'' That is a powerful statement coming from the 
Commandant of the U.S. Marine Corps.
    I will close by addressing the proposal, as we know--a 
proposal that may be forthcoming from the White House to 
question the science behind the national security estimate on 
climate change. We still do not know the details of what the 
proposal before the National Security Council would do. I 
noticed this morning in the Washington Post there was a 
significant story about that issue. Press reports have 
indicated that National Security Adviser Bolton wants to create 
a panel that would reexamine whether climate change is needed 
and a threat to national security--that climate change is 
indeed a threat to national security.
    If this panel were created in good faith, transparent, 
open, under the legal requirements of a Federal Advisory 
Committee, I am confident that the weight of scientific 
evidence and present-day realities would confirm what I and 
other national security leaders have found: Climate change is a 
real and present threat to our national security, which most 
likely will get worse.
    There needs to be a dedicated effort to address this 
threat, and, Mr. Chairman and Mr. Jordan, I appreciate very 
much you bringing this committee together on this subject 
because it is only through the committee work in the Congress 
where we forge a bipartisan consensus to move forward and 
prepare for what we know is impending and is real.
    This year, the Pentagon delivered a congressionally 
mandated report on the vulnerable of our military 
installations. The report found that 67 percent of the 
installations assessed currently face threats from flooding. 
Sixty-seven percent. Fifty-four percent currently face threats 
from drought, and 46 percent face threats from wildfires. Those 
percentages jump higher when future vulnerabilities--not just 
current but future vulnerabilities are taken into 
consideration.
    Unfortunately, this administration failed to comply with 
congressional requirements. The report left out the Marine 
Corps entirely and ignored the requirement to provide an 
overview of action necessary to ensure resiliency. It did not 
include any cost estimates. While the initial report remains a 
valuable first step, the failure to complete the assessment and 
provide future mitigation plans will severely inhibit future 
readiness.
    I signed a letter along with Secretary Kerry and 56 other 
senior national security officials asking that the President 
not dispute and undermine military and intelligent judgments on 
climate change, and I ask that a copy of that letter be 
included in the record.
    Chairman Cummings. Without objection, so ordered.
    Mr. Hagel. Mr. Chairman, Mr. Jordan, and this committee, 
again, I thank you for this opportunity and for your attention 
to this serious matter, and I look forward to your questions.

    Chairman Cummings. Thank you very much to both of you, and 
thank you for recognizing the pain and turning it into a 
passion to do your purpose. And I think that when we are 
dancing with the angels, future generations will benefit from 
your work.
    Secretary Kerry and Secretary Hagel, in February, there 
were a number of press reports regarding a White House memo 
showing that the President may be seeking to create a committee 
within the NSC to challenge previous Government reports on the 
dangers of climate change.
    The memo specifically challenges the finding that climate 
change is a national security threat.
    Last month the two of you led a group of 58 senior national 
security professionals in writing to President Trump about this 
committee. You wrote, and I quote, ``We are deeply concerned by 
reports that the National Security Council officials are 
considering forming a committee to dispute and undermine 
military and intelligence judgments on the threat posed by 
climate change,'' end of quote.
    You went on to write that this committee, quote, ``will 
weaken our ability to respond to real threats, putting American 
lives at risk,'' end of quote.
    Secretary Hagel, what concerns you most about the proposed 
White House panel?
    Mr. Hagel. Well, the first concern I have with what I have 
heard that the White House may come up with in their effort to 
review the science and the seriousness of climate change on 
national security is and I think was addressed very forcefully 
last week before the Senate Armed Services Committee by four of 
our leading generals, beginning with the Chairman of the Joint 
Chiefs of Staff. Each laid out pretty clearly, if you go back 
and look at that record, the concern they had about not 
addressing this issue of climate change seriously and the 
impact it is having and will continue to have, especially on 
our readiness. I mentioned it in my comments that the readiness 
portion, as the Commandant of the Marine Corps laid out, gets 
lost in this.
    We have, this country has, the only country in the world 
that has responsibilities around the world for our own 
interests, not the interests of NATO allies but for our 
interest. We are in NATO, for example, because it is clearly in 
our interest to be in NATO, not Germany or England; they are 
our allies. But we had better pay attention to what our 
scientists, our intelligence people, our military leaders are 
saying how serious this is and the impact it is going to have, 
it is having, on our readiness and our capabilities and our 
national security.
    Chairman Cummings. Secretary Kerry, how could a panel 
undermining scientific and intelligence assessments put 
American lives at risk? Secretary Kerry?
    Mr. Kerry. Well, there are many ways. First of all, let me 
try to be clear, if I can. I hope we can kind of try to 
depoliticize this, and I ask our colleagues here to stop and 
think about what is going on.
    Lives are already being lost in America. We are losing 
lives today. People are being killed in mudslides. People are 
being killed in fires. People are being killed in floods. I 
mean, you have a host of dangers already being lived out by 
average Americans. There is a guy from Nebraska in the most 
recent floods, a farmer who said, quote, ``It is probably over 
for us,'' said a farmer from Nebraska whose farm was destroyed 
by the floods, financially. How do you recover from something 
like this? That is an average person in America who is already 
suffering from this.
    Now, in terms of military security and larger security, 
every prediction that scientists made--I began this in 1988, 
when Jim Hanson testified to us in the Senate. Al Gore, Tim 
Wirth, Frank Lautenberg, John Warner of Virginia, Mack Mathias 
of Maryland, a host of people came together and we all agreed 
that we ought to listen to these guys. The science is telling 
us it is happening.
    In 1992 we went down to Rio, to the summit in Rio, the 
global summit. George H.W. Bush, Republican, sent Bill Reilly, 
the EPA director, down there to help negotiate an agreement, 
and we came up with an agreement. It was voluntary. It did not 
work, but there was a consensus, and all of the predictions in 
the science that each year have been revised, 97 percent of the 
world's scientists agreeing, they have come together and said 
this is happening, it is happening now, it is happening faster 
and it is happening bigger than we predicted it would. So we 
are all forced to stop.
    Now, in terms of the military piece of this, we have 
already seen what happens with the war in Syria, the pressures 
that Turkey was able to use by just turning the dial and upping 
the number of migrants that would move into Europe and the 
disturbance that created to the politics of France, of Britain, 
of Italy, of Eastern Europe. It has had a profound negative 
impact.
    Imagine what happens as climate change gets worse and you 
have millions of people that have to move because they cannot 
eat, they cannot drink. The instability that is created will be 
manna from heaven for extremists who are already exploiting the 
impoverished. There are 2 billion young people between the ages 
of 15 and 25. There are 1.8 billion children 15 years old or 
younger living in most of those areas. Four hundred million of 
them will never go to school.
    Mr. Chairman, that becomes a concern of our military that 
has people posted around the world in these locations fighting 
terrorism, trying to protect the United States of America. The 
best protection is to take away the causes of these things 
before they happen. Do not allow them just to buildup and then 
inundate us.
    So, you know, the reason there is such concern about this 
report, this analysis, is I have a copy of the executive order, 
and the executive order itself says that Climate Science 
Special Report claims to authoritatively link climate change to 
the emission agreement--``claims.'' No, it does not claim. It 
overwhelmingly proves the connection.
    So if this executive order is coming in with the notion 
that it is going to put a guy named William Happer, who is not 
a climate scientist, who has likened, compared climate science 
to Nazi propaganda, he is behind putting this together, and it 
is being done in secret, we have a concern that all of the 
consensus built up over 20 years with respect to military 
concerns, security concerns, is now going to attempt to be 
eroded by a president who has said climate change is a hoax 
caused by the Chinese for the purpose of economic competitive 
advantage and who has said ``I believe in clean air, immaculate 
air, but I do not believe in climate change.''
    So I do not trust a secret group being put together that is 
already challenging in the executive order the legitimacy of 
science that is beyond anybody's doubt whatsoever.
    Finally, Mr. Chairman, a study from 2016 replicated the 
basic assumptions of the three percent of alternative science 
with respect to climate. In every single case, they found that 
the assumptions and the basic analysis had an error in the 
methodology and the analysis, and when corrected appropriately 
to reflect the 97 percent consensus about the science, they 
wound up finding the same consequences of climate change.
    So this is a dangerous moment for us, Mr. Chairman, because 
we spent $265 billion cleaning up after three storms two years 
ago. Harvey dumped more water on Houston in five days than goes 
over Niagara Falls in an entire year, a once in 50,000-year 
storm now happening more frequently. In Irma, you had the first 
sustained winds in a hurricane measured at over 185 miles an 
hour for a full 24 hours. That has never happened before. And 
the reason you have greater intensity in these storms is the 
ocean is now warming 40 percent faster than ever before.
    The glacier of Greenland is melting four times faster than 
it was 10 years ago. Eighty-six million metric tons of ice fall 
off every day, floats out to sea to melt. That 85 million 
metric tons a day is equal to the entire water demand of 
greater New York, New Jersey, and Connecticut for an entire 
year.
    We are living with insanity. We are on a kind of merry-go-
round with acceptance of non-science that is preventing us from 
doing what every other nation in the world is currently trying 
to do.
    Chairman Cummings. Thank you very much.
    Ms. Miller.
    Mrs. Miller. Thank you, Mr. Chairman.
    Over the last two centuries we have seen a massive boom in 
the world's economic output. For comparison, according to CapX, 
in 1820 over 90 percent of the world's population lived on less 
than $2 a day; and in 2015, less than 10 percent of the people 
lived on less than $1.90 a day.
    This boom is not just because of microchips and the 
Internet. It is, in part, because people have access to energy. 
From powering homes, schools, and workplaces, access to 
affordable energy helps lift a society out of poverty and put 
it on a path to prosperity. Quality of life directly correlates 
with access to affordable energy. That is why, when I hear my 
colleagues talk about our energy industry, they must recognize 
that dismantling coal, oil, and natural gas would not just 
destroy these jobs and families, it would make our energy less 
affordable and set our progress back.
    As a mother and grandmother, I can understand the 
importance of ensuring that our world is a better place for our 
future generations. This means taking care of our environment. 
Most importantly, it means taking care of our economy.
    Secretary Hagel, in 2017 the United States led the world in 
the reduction of climate emissions, according to the American 
Enterprise Institute. The United States has made great strides 
in ensuring we are cleanly utilizing our energy resources. 
However, other countries in the world are not making equivalent 
strides and are seemingly canceling out our efforts. Many of 
the greatest culprits are signatories to multilateral 
agreements, as well.
    How is change possible without the help of other nations?
    Mr. Hagel. Well, it is not. That is why Senator Byrd and I 
wrote the resolution in 1997 the way we did. There were two 
parts to that resolution. The U.S. Senate would not confirm any 
treaty on climate change unless it included all nations of the 
world, different percentages, but it must include all nations.
    So we have to work continuously. The Paris Accords were a 
good example of how you do that. You cannot force other 
countries to do things that they may not want to do, but you 
can encourage them, you can incentivize them with technology.
    I brought a New York Times front page business section that 
I think is relevant to this issue, the business section of the 
New York Times yesterday. You may have seen it, a front page 
story, big story: ``Big Oil Bets on Removal of Carbon 
Emissions.''
    Chevron and a number of the big oil companies are 
investing, and they are not the only ones, and this is not the 
only example, here in the United States and worldwide, in how 
we reduce our carbon emissions. It is very clear that carbon 
emissions hurt the environment. It is very clear something is 
happening in the climate. You just heard Secretary Kerry and I 
talk about some of those specifically in the national security 
arena.
    Mrs. Miller. I did hear you----
    Mr. Hagel. But let me add one other thing. Climate is not 
limited, as you know, just to the United States.
    Mrs. Miller. Correct.
    Mr. Hagel. Climate is worldwide. There is another face that 
we have not even talked about this morning yet. It is pandemic 
health problems, and----
    Mrs. Miller. Well, I am more interested in talking to you 
about how the other countries are not complying with----
    Mr. Hagel. Well, like I said, we have to incentivize them, 
we have to work with them, we have to encourage them. That is 
why allies are important. That is why we built the world order 
after World War II, so that the countries would not go it 
alone.
    Mrs. Miller. But they are not.
    Another question----
    Mr. Hagel. Well, that is not true. That is not true. China 
actually is investing in a lot of carbon emission technologies. 
In fact, they are trying to fill the vacuum that the United 
States is leaving behind in this area with other countries in 
carbon emissions technology. They are actually doing pretty 
well with it.
    Mrs. Miller. I have another question for you as well, sir.
    Mr. Hagel. Yes.
    Mrs. Miller. Access to affordable energy is arguably the 
foundation of human progress over the last century and a half, 
where we have lifted more people out of poverty, fed a growing 
global population, and created more prosperity for humanity 
than at any other point in history. Our energy industry is here 
to stay.
    What steps can we take to ensure we preserve and protect 
our environment while also maintaining critical employment, 
growth, and affordability within our economy and energy sector?
    Mr. Hagel. Well, it is what we are talking about, what we 
have been doing the last 30 years. The balance of a strong 
economy, cutting-edge technologies, but protecting your 
environment at the same time, protecting your national security 
interests, protecting your interests around the world. It is 
not just one dominant dynamic of that. It is a world that 
balances them all. A strong economy is, of course, the core of 
that.
    Mrs. Miller. Absolutely.
    Mr. Hagel. But you talk about your children and your 
grandchildren, if we do not protect our environment, your 
grandchildren have got a pretty tough go here in 20, 30, 40, 50 
years, what we leave behind. You just look around at what has 
happened in 12 months in this country, around the world. I 
mean, it is not just here, it is around the world.
    So we have to be smart, prepared, come together with 
bipartisan solutions, not fight each other on it but come 
together seriously and recognize we have an issue. It is the 
biggest responsibility any leader has, to leave the place 
better than they found it, and I do not think we are doing it 
right now.
    Mrs. Miller. Absolutely.
    Chairman Cummings. The gentlewoman's time has expired.
    Mr. Kerry. Could I just add one thing that is important?
    Chairman Cummings. One answer to the question.
    Mr. Kerry. Well, I think it is important to the discussion 
here, if I can, just quickly, because I have been down in the 
mines in West Virginia. I have enormous respect. I understand 
completely what Congresswoman Miller is struggling with in 
terms of the folks she represents and the jobs they need.
    We all want an economy that is going to grow. You are 
absolutely correct that poverty has come down. When I went to 
college, severe poverty was over 50 percent. Now it is below 10 
percent. People have been brought in out of poverty.
    The problem is--and it is a problem for all of us on the 
planet--that we have been doing this in a way that is simply 
not sustainable. There is no country in the world living 
sustainably today, and our grandchildren, our kids are all 
going to face this challenge as we go forward. Oil and gas are 
going to continue to be used for whatever number of years to 
come. That we knew as we were working on the legislation we 
worked on in the Senate.
    But the truth is, Congresswoman, solar today is cheaper 
than coal. It is. And the marketplace has made its decision. In 
America, it is not the Congress who has decided that coal 
plants are closing. It is the market. There is not an American 
bank that will finance a new coal-fired power plant in America.
    It is also not happening in many other parts of the world. 
People are transitioning to use gas as the bridge fuel for the 
base load of their power sector, but they are building 
incredible amounts--in fact, China, investments in renewables 
was the largest it has ever been about two years ago, and China 
accounted for 45 percent of all solar photovoltaic investment, 
and Europe is leading in offshore wind.
    I want America to lead in those things. I want your people 
in West Virginia to be the ones who are building those turbines 
and selling those blades. Why is that not happening? Because we 
are not in the game. And that is what I think is so frustrating 
for many of us.
    The greatest marketplace the world has ever seen is the 
energy market, 4 to 5 billion users. It is going up to 9 
billion users in the next 30 years. And if the United States 
does not get into that market in a whole way, we are going to 
cede it to these other countries that are currently replacing 
us. There are jobs there, plenty of jobs.
    Chairman Cummings. Mrs. Maloney?
    Mrs. Maloney. Mr. Chairman, what we need is strong 
leadership to combat the crisis of climate change, and I thank 
both of our panelists for pointing that out and for pointing 
out that this is an American challenge, it is a bipartisan 
challenge. If there was anything that we should be agreeing on, 
it is to work together to combat this.
    But what we have instead is a White House which is 
considering a new panel to deny that climate change really 
exists.
    So what we need is reality. We need efforts to attack 
climate change, not politicize it. As Secretary Kerry pointed 
out in his testimony, the Administration's own leaders, their 
own generals, their own scientists, know the risks from climate 
change are real and that our efforts to address it are terribly 
inadequate.
    So, as you said in your testimony, Secretary Kerry, facts 
are facts, and the facts are real. It is here.
    My question to both of you, starting with Secretary Kerry, 
is what do we need to do to get ready? Climate change is here; 
everyone knows it. People may want to deny it, but it is here. 
How do we work together to protect our people, protect our 
planet?
    Mr. Kerry. Congresswoman Maloney, I think that the key is 
to come together in a bipartisan way to move forward. I think 
we got up to about 55 votes in the Senate at one point, until 
certain industry folks started to attack one of the senators on 
the other side of the aisle, by the way, our colleague, Lindsay 
Graham. So we have to get away from that by coming together 
around a plan that will unite Americans, which will create 
jobs, which will phase in at an appropriate rate. But there are 
several things that we can do.
    One of the most important things we could do--Congressman 
Jordan, Mr. Ranking Member, you were referring earlier to the 
companies that failed. It is true, some companies failed that 
were invested in. But what is going to win this battle is 
something called mission innovation, which China has signed up 
to, India has signed up to, 23 nations plus the EU. So there 
are 27, still 28 today, depending on what Britain does, but 27 
other countries.
    All of them are contributing now to consortia efforts to 
push the technology curve, because in the end it is probably 
going to be battery storage or increased mileage at a cheaper 
rate, hydrogen as a fuel that can be taken up to scale. We 
should be pushing the curve of discovery. That is in the 
American DNA. If we did that, there is also a Republican 
proposal.
    Former Secretary Jim Baker, former Secretary George 
Schultz, who was also Secretary of the Treasury, both believe 
that America needs to have carbon pricing, and they have 
suggested a methodology by which we could price carbon, which 
would let the marketplace begin to decide where the winners and 
losers are. That is a good old-fashioned laissez faire economic 
way of making decisions.
    We could do that, I believe, in a joint way. We need to 
include, I think--some people disagree with this, but maybe 
fourth-generation modular nuclear is going to be a component of 
the overall mix. Let communities decide for themselves whether 
that is the way to go.
    But I think if we could come together around a few basic 
steps like this, there are huge gains to be made in reducing 
emissions through efficiencies, buildings, how we are managing 
our industry, all of our transportation. Every one of these 
sectors is ripe for us to be able to make progress without 
hurting our economy; in fact, helping our economy by creating 
millions of jobs.
    If we did infrastructure around this, a new grid for 
America, a smart grid, you would have, for every billion 
dollars of infrastructure investment, 27,000 to 35,000 jobs 
created. That is what we ought to be doing.
    Mrs. Maloney. Secretary Hagel.
    Mr. Hagel. Thank you. Secretary Kerry laid it out pretty 
clearly. I would just summarize. I think you have about five 
components to this, and Secretary Kerry really listed them.
    But first is U.S. political leadership, political 
leadership here in the United States, in the Congress, in the 
White House, working together on forming policy.
    Market is the second piece of that. The marketplace will 
always win, just as John has noted regarding coal. It is just 
not efficient anymore, or it is not the cheapest form of energy 
anymore. It is the marketplace. Focus on the marketplace. Open 
the marketplace up.
    Technology. Technology always drives everything. Focus on 
the technology. It is out there. It is happening.
    As was noted in this business piece in the New York Times, 
allies and alliances. We have to work with all of our partners 
and people all over the world because this is a global issue.
    Those are the components, to answer your question.
    Chairman Cummings. Mr. Comer.
    Mr. Comer. Thank you, Mr. Chairman.
    Secretary Kerry, Secretary Hagel, welcome back to 
Washington. Thank you for your service in Congress and the 
administration, and especially in Vietnam.
    I want to focus my time on the Green New Deal and how it 
will affect the agriculture industry. I am a farmer and former 
Kentucky Commissioner of Agriculture. The agriculture industry 
is the lifeblood of rural communities that I represent and 
that, honestly, the Green New Deal stands to decimate those 
rural communities.
    The U.S. agriculture industry supports more than 21 million 
jobs. That is 11 percent of all the jobs in the United States, 
and that is according to the American Farm Bureau.
    Land is needed for the Green New Deal. Land is needed to 
build tracks for the high-speed rail, to build solar plants, 
solar panels, windmills, and the proposal calls for the 
government to seize this land, this farmland.
    The elimination of farmland in order to build these 
projects will not only cost U.S. jobs but also put our food 
supply in jeopardy, not to mention that it is not fair to hard-
working family farmers.
    Authors of the Green New Deal plan to pay for the bill, and 
I quote, ``the same way we paid for the New Deal, the 2008 bank 
bailout, all our current wars, by the Federal Reserve extending 
credit, by creating new public banks that extend credit, by the 
government taking an equity stake in projects,'' end quote.
    Secretary Kerry, my question to you is, printing a lot of 
new money and opening a whole bunch of new public banks is a 
real way to pay for this Green New Deal project proposal?
    Mr. Kerry. Well, let me begin by saying, Congressman, there 
are a lot of different proposals about how to proceed. I do not 
know that any of them are coming from your party or your side 
of the aisle. Do you have a plan to deal with climate change? I 
think you said you are not sure of the science.
    But my focus is on how we are going to move forward. We all 
have some differences with one piece of legislation or another. 
But in proposing what she has proposed, together with Senator 
Markey, Congresswoman Ocasio-Cortez has, in fact, offered more 
leadership in one day or in one week than President Trump has 
in his lifetime on this subject.
    So we are talking about it, and my question is where is 
your proposal? Did you have any hearings on it in the last few 
years? Mostly on Benghazi, if I recall, when I was up here.
    So I think what we ought to do is stop the politics and get 
down to really serving the people of West Virginia and the 
people of Kentucky.
    Mr. Comer. And that is what we are doing here today, and we 
are glad you are here to talk about it. But my next question--
--
    Mr. Kerry. Well, you asked me about the focus----
    Mr. Comer [continuing]. revolves around how to pay for it.
    Mr. Kerry. Well, there are all kinds of ways. I mean, look 
at what Secretary Schultz and Secretary Baker, both 
Republicans, as practiced in American politics as any two 
people alive today, and they believe deeply--Professor Schultz, 
George Schultz is at Stanford at the Hoover Institute, and he 
says we have to price carbon, and that will let the market 
move.
    I do not know why your party--I think it is an American 
Enterprise Institute concept that first came about. But at any 
rate, let's debate it, let's put it on the floor, let's really 
discuss it. Even better----
    Mr. Comer. And let me add, to the Senate's credit--I do not 
brag on the Senate very often--they did put the vote on the 
floor, and as Ranking Member Jordan mentioned, not a single 
Democrat voted for the bill, not a single one.
    Mr. Kerry. Congressman, you know as well as I do--that is 
why I said I am reminded today about the fun I am missing. I 
mean, come on, we have all seen those votes. We all know what 
those are. That is a political vote, and people chose to vote 
present because it was a meaningless vote. In effect, it was 
politics.
    I think what is really important is if the committee came 
together and said, hey folks, let's kill the politics for the 
next two months and come up with a piece of legislation that 
puts infrastructure----
    Mr. Comer. My time is running out here. But you talk about 
theater----
    Mr. Kerry. Well, America's time is running out.
    Mr. Comer [continuing]. and we were just talking about it, 
your party knows there is no way to pay for this, for one.
    Mr. Kerry. That is not true. There are any number of ways 
to pay for it.
    Mr. Comer. Well, how do we pay for it?
    Mr. Kerry. There are so many different ways to pay for it. 
If we sat down--I served on the super-committee, and I formed 
an alliance with former Congressman David Camp and with Fred 
Upton, and we had a way of putting together a proposal that we 
thought was terrific which would have helped solve the 
entitlement problem for the long term----
    Mr. Comer. Like how?
    Mr. Kerry. Well, I will tell you what happened: Politics 
got in the way. The chairman would not even let two of his own 
members, Republican Party, put it up or take it seriously, and 
we never got to the issue of tax reform, which we thought was 
the tradeoff. So we had a grand bargain potential of solving 
entitlements for the long term, having tax reform and 
expediting it, and we never could get there because of the 
politics of it.
    So I have to tell you, this is prisoner of not sitting down 
to find a creative way to deal with this. We have a looming 
deficit issue, a lot of challenges coming at us. We are going 
to have to find some kind of revenue to deal with the 
priorities of our country because we are not rebuilding America 
today. We are not putting money into infrastructure, and there 
are any number of ways to fund that.
    Mr. Comer. And it is estimated to cost between $51 trillion 
and $92 trillion----
    Chairman Cummings. The gentleman's time has expired.
    Mr. Rouda?
    Mr. Rouda. Thank you, Mr. Chairman.
    I am utterly disappointed. I was hoping this would be a 
bipartisan discussion about climate change, and what I am 
hearing from the other side is, no, we do not believe in 
climate change; or, no, we do not believe it is a national 
security threat; no, we do not need to do anything about it; 
no, let other countries do something about it; or, no, we 
should not do anything because other countries are not doing 
anything about it.
    It is time to step up and not be the Party of No or Members 
of Congress that simply say no. We have to be looking for 
solutions that impact every generation, our children, our 
grandchildren, and future generations. It is time to step up.
    Let's talk about national threat. You would think from the 
other side that we do not have a national threat when it comes 
to climate change.
    Secretary Hagel, it is known quite well that the Department 
of Defense has been making preparations for installations 
across the world for our military installations to address 
climate change; is that correct?
    Mr. Hagel. Yes.
    Mr. Rouda. And that is not because they do not think this 
is a non-factor. It is one of the number-one threats to our 
national security, as identified by the Department of Defense; 
correct?
    Mr. Hagel. Correct.
    Mr. Rouda. In fact, there are some estimates that there 
will be approximately 200 million climate change refugees by 
the year 2050. I will point out that that is 31 years from now. 
Is that an assessment that is consistent with some of the 
modeling you have seen from the Department of Defense and other 
agencies?
    Mr. Hagel. Well, I have not been there for a couple of 
years, but it sounds reasonable, and it sounds like the 
numbers, when I was Secretary of Defense, that we were looking 
at as we were projecting out.
    As you know, the Defense Department works off projections 
into the future, whether it is buying new platforms, new 
planes, whatever, almost in 10-year projections. So this threat 
of climate change is one that the Pentagon has always seen as a 
future threat but also real right now.
    Mr. Rouda. And the reason is because as we raise the 
ambient temperature in the earth's atmosphere, where we have 
built our homes, our farms, and our cities are going to be in 
the wrong place because we are changing the weather patterns; 
right?
    Mr. Hagel. That is right.
    Mr. Rouda. So this is an infrastructure issue well beyond 
the widening of the local highways. This is a massive issue of 
200 million climate change refugees, the greatest migration of 
humankind since World War II; correct?
    Mr. Hagel. Correct. John pointed out, if you recall, I 
think, in his opening statement that he had visited, while he 
was Secretary of State, Norfolk, where the Atlantic fleet is. 
That is our largest fleet. And that is a very good example of 
the vulnerability that we have there. That is a huge asset for 
our national security, and they are projecting now to have to 
reassemble, restructure, replace, and probably remove some 
areas before the climate change dynamic----
    Mr. Rouda. So we can put to rest the debate as to whether 
this is a national security threat. Climate change is a 
national security threat.
    Mr. Hagel. Clearly. It clearly is.
    Mr. Rouda. So let's turn to the economics of it, because I 
completely disagree with the Ranking Member of the 
Environmental Subcommittee that we cannot address this through 
economic means or what it is going to cost. That is exactly how 
the energy companies exist today, through economic incentives. 
And while I agree with the Ranking Member that there have been 
times when we have made investments in clean energies that have 
not come to fruition, the reality is that for every $80 we 
spend supporting fossil fuels, we spend $1 on renewable fuels.
    Secretary Kerry, do you believe that if we had economic 
parity under the tax code for renewables versus fossil fuels 
that you would see a greater utilization of fossil fuels?
    Mr. Kerry. Clearly, we do not. We have a balance, in fact, 
against them.
    Mr. Rouda. Exactly, which is why you talked about carbon 
dividend, and also ideas of cap and trade, which would provide 
the appropriate economic incentives so that energy companies 
could be leading us even faster than they are now in adopting 
renewable energies; right?
    Mr. Kerry. Correct.
    Mr. Rouda. So when we look at renewable energies today, 
representing two-thirds of all new energy coming from 
renewables, and we have only seen two-tenths of 1 percent from 
coal, it is clear that we have an opportunity through 
appropriate economic incentives to have the change in behavior 
we want to see in addressing climate change.
    Mr. Kerry. Well, I might mention, Congresswoman Miller is 
not here right now, but I would just point out that for West 
Virginia and other coal-producing places, the reason the United 
States did well bringing emissions down two years ago, in 2017, 
we had 75 percent of the new electricity that came online in 
the United States came from solar, 75 percent. Do you know what 
coal was? 0.2 percent.
    So the market is making the decision right now, and coal 
has never, in fact, included the genuine costs because it does 
not factor in black lung, it does not factor in particulates in 
the air and the cost--the largest cost of children's 
hospitalization in America in the summer is asthma, is 
environmentally induced asthma. We spend $55 billion a year on 
that.
    So when you start putting in the real costs, there is such 
a differential in choice here, and that is what we ought to be 
putting to the American people.
    Chairman Cummings. The gentleman's time has expired.
    Mr. Amash?
    Mr. Amash. Thank you, Mr. Chairman.
    I will yield to the gentleman from Kentucky, Mr. Massie.
    Mr. Massie. Thank you, Mr. Amash.
    Mr. Chairman, there is not a single climate denier in this 
room. The climate was different yesterday, it was different 
10,000 years ago, and it is going to be different 10,000 years 
from now, whether there is a human on this planet or a 
domesticated animal. There is not a climate denier in this 
room.
    But I think there are some photosynthesis deniers. I think 
there are some natural climate deniers. I noticed in Secretary 
Kerry's testimony here--it is three pages, single spaced--it 
does not even mention the words ``anthropogenic'' or 
``manmade.'' I think it is an attempt to conflate manmade 
climate change with climate change, the natural climate change 
that is occurring.
    Let me read the sentence here from your testimony, Mr. 
Kerry. ``In fact, sea levels on the East Coast are rising twice 
as fast as the global average''--wow, how does that happen?--
``thanks to uneven ocean temperatures and geology.'' Well, what 
are we going to do to stop geology? Can you explain how that 
works, Secretary Kerry? How does the average global sea level 
differ from the sea level on the East Coast?
    Mr. Kerry. The temperature of the water itself and the 
geology of the water, that it is able to be higher in one place 
and lower in another, and those are anomalies.
    But on the climate change denier thing----
    Mr. Massie. Let me go to this next. You said that it is 
sinking. You said it is sinking in the sentence before that, 
that the land is sinking. You cannot change that. That is 
geological. That is on a geological time scale.
    What is the rate of sea level change? Let's go with global 
average. What is the rate of sea level change? Short answer, 
please. Use any units you prefer.
    Mr. Kerry. It is in centimeters, presented in centimeters 
on an annual basis.
    Mr. Massie. Okay, that is close. That is close.
    Mr. Kerry. Wait. But they are predicting--whoa, whoa, whoa. 
But you have to----
    Mr. Massie. It is millimeters. Let's set the record 
straight.
    Mr. Kerry. Congressman, if you do not want the genuine 
truth here, I swore to tell the truth, so let's listen to the 
truth.
    Mr. Massie. Okay, go for it.
    Mr. Kerry. The truth is that what is happening is there is 
anthropogenic major contribution, which all of the 97 percent 
of the scientists have agreed on mankind is contributing to and 
making the increase.
    Mr. Massie. There are 100 different models, and they all 
disagree. Which one----
    Mr. Kerry. No. There are different models, that is correct, 
and sometimes there are differences in the 97 percent about 
what model is more correct or less correct. But they do not 
disagree on the fundamental contribution of human beings to 
what is happening today. And the fact is that no one can 
predict with absolute certainty what the rate of the melt-off 
of the Greenland ice sheet will be. If the Greenland ice sheet 
melts completely, which is entirely possible now--there are 
scientists who assert--there is an entire river. I have been up 
on that glacier. I looked down through a hole 100 feet deep. 
You see an entire river rushing unbelievably fast underneath 
it. People are afraid that that river is going to act like a 
slide and take a whole portion of that ice sheet one day. We 
lost a portion of the West Antarctic ice sheet just in the last 
years the size of the state of Rhode Island, and another one is 
about to break off. It is going to melt.
    Mr. Massie. Okay. This is the House, not the Senate. We get 
five minutes, so you cannot filibuster.
    Mr. Kerry. But, Congressman, the one thing you need to 
understand is----
    Mr. Massie. Let me finish and set the record straight. You 
said it was in centimeters per year. It is millimeters per 
year, the highest claims that I have seen. It may be three, 
four, five millimeters per year. Are you aware of what the sea 
level change has been in the last 15,000 years, the average, in 
millimeters per year?
    Mr. Kerry. No, not the average.
    Mr. Massie. It is about seven millimeters a year. It was 
100 meters lower 15,000 years ago.
    Mr. Kerry. But we did not have 7 billion people on the 
planet back then.
    Mr. Massie. I ask unanimous consent----
    Chairman Cummings. You want to put it in, go ahead.
    Mr. Massie [continuing]. to submit for the record the Sea-
Level Rise Modeling Handbook from the USGS.

    [The Sea Level Rise Modeling Handbook referred to is 
available at: docs.house.gov.]

    Mr. Massie. Also, I want to ask you about CO2 as well, 
because----
    Mr. Kerry. Do you want an answer to it? Because I would 
like to answer the one we were just talking about.
    Mr. Massie. I have 45 seconds, but I think I might get some 
more time later.
    I want to ask you, since we were talking about 
anthropogenic, what has been the anthropogenic effect on the 
climate? How has that affected crop yields in the United States 
over the last 50 years per acre?
    Mr. Kerry. How has that affected what?
    Mr. Massie. How as it affected our crop yields in the 
United States? You spent two of your three pages talking about 
the Middle East and all over the globe. I want to know how has 
increased CO2 levels affected crop yields in the United States 
over the last 50 years.
    Mr. Kerry. Well, you have different crops affected by 
different things. You have had GMO, as you know. You have had 
an incredible amount of fertilizer advancement, chemical 
advancement. As a result of much of that, we have runoff into 
the Gulf of Mexico through the Missouri, down to the 
Mississippi, the Ohio River, et cetera, which has now created a 
dead zone so massive that you have nothing that lives there 
because of the nitrate overload. So, yes, we have better crop 
yield, but we have other downstream problems.
    Mr. Massie. Would you----
    Mr. Kerry. Let me just finish. The fact is that we are 
increasingly witnessing impact on crops. We have migration of 
forests. We have migration of different fauna that grow or do 
not grow in different places. We have insects that now stay 
alive, like the pine-beetle that is destroying millions of 
acres of trees--Montana, Wyoming, Canada. You are losing trees 
because they do not die now because it does not get as cold as 
it used to in the cycle.
    So there is all kinds of impact on crops yet to be 
determined. We do not have all the answers, but we are seeing 
negative impact even as we have grown our ability to be able to 
produce food.
    Mr. Massie. For the record, it is a positive impact on 
plant growth when you get higher CO2 levels.
    Mr. Kerry. Yes, but here is the problem. Mr. Chairman----
    Chairman Cummings. The gentleman's time has expired.
    Mr. Connolly?
    Mr. Connolly. Thank you, Mr. Chairman.
    I will say it is always troubling when politicians 
interpose themselves for science and for empirical-based 
policymaking when we do not like the conclusions we come up 
with on our own. I am not sure we are the best people in the 
world to do that. In fact, I am sure we are not.
    Secretary Kerry, you were interrupted. I think you wanted 
to talk about what would be the consequences of global sea 
level rise if the entire ice sheet on Greenland were to melt. 
What would be that impact, sir?
    Mr. Kerry. Thank you, Congressman.
    Look, let's be factual here and clear, because I want to 
cover both sides appropriately. CO2 has a positive impact on 
certain plants, of course. Plants thrive on CO2. But what good 
does it do to have the plants thriving on CO2 if they are being 
destroyed in a mudslide or a fire, a forest fire or a flood? 
There are balances. There are counter-balances to the other 
side of the amount of CO2 we produce.
    Ninety-seven percent, or I think most scientists agree that 
CO2 is now being added at a rate that is having a profound 
impact on climate change. It is the fundamental cause, not the 
only cause. There are other greenhouse gases. It is the 
principal cause, and it is the most long-lasting.
    So if the Greenland ice sheet were to melt in its entirety, 
you could have several feet of sea level rise, not millimeters. 
So you can mock the millimeters today, but if you ignore the 
cycle of what is happening and what that predicts is going to 
happen, you are putting Americans in danger, property trillions 
of dollars of damage. It is estimated that if we have the 0.5 
degrees of increased temperature over the course of the next 12 
years, it will cost all of us about $54 trillion. If we go up 
to the two degrees Centigrade, the cost is estimated to be $69 
trillion. These are analyses that are available to people to 
make their judgments----
    Mr. Connolly. And you were Secretary of State, Secretary 
Kerry, and you saw the IPCC report, which represented a global 
consensus about the threat from global warming. Were you 
convinced in reading that report and presumably the kind of 
intelligence you had available to you during your tenure?
    Mr. Kerry. Congressman, I was convinced prior to reading 
the report because we started the hearings in 1988, and before 
the report came out there were many of us who were already 
working on this. But, yes, the report confirmed it, and there 
is ample peer-reviewed science, literally thousands of reports 
that have been done which have peer reviewed the judgments, the 
assumptions, the analysis, and that is why you have 97 percent 
agreement at this point in time, and more than 195 countries 
all working in concert to try to live by the Paris goals and 
hopefully surpass the Paris goals.
    Mr. Connolly. Thank you, Mr. Secretary.
    Secretary Hagel, you were Secretary of Defense. Was climate 
change just some kind of abstract, theoretical decision at the 
Pentagon?
    Mr. Hagel. Congressman, it was not. Again, I go back to 
what John Kerry has noted, and Chairman Cummings, to the George 
H.W. Bush Administration. That administration really laid out 
in 1991 and 1992 the threats of climate change, especially for 
national security.
    I might point out for those of you who do not recall, Dick 
Cheney was the Secretary of Defense during that time, and he 
enthusiastically embraced that, what their intelligence people 
had laid out. So you could maybe go back even before 1992 with 
the Pentagon, but certainly in 1992 and forward, the Pentagon 
has looked at potential of climate change as a threat to our 
national security.
    Mr. Connolly. And I believe, Mr. Secretary, if I can 
squeeze this in, there was a study of 80-something military 
installations of ours around the world, and 70-something of 
them were determined to be under threat, in part because of 
global climate change.
    Mr. Hagel. That is correct. I noted that in my opening 
statement. It was an assessment done at the direction of 
Congress, and it was released I think earlier this year.
    Mr. Connolly. So that is contemporaneous documentation?
    Mr. Hagel. Yes.
    Mr. Connolly. I thank both Secretaries for being here 
today.
    Thank you, Mr. Chairman.
    Chairman Cummings. Thank you very much.
    Mr. Massie?
    Mr. Massie. Thank you, Mr. Chairman.
    Secretary Kerry, I want to read part of your statement back 
to you: ``Instead of convening a kangaroo court, the President 
might want to talk with the educated adults he once trusted to 
fill his top national security positions.'' It sounds like you 
are questioning the credentials of the President's advisers 
currently. But I do not think we should question your 
credentials today. Isn't it true you have a science degree from 
Yale? What is that?
    Mr. Kerry. Bachelor of Arts degree.
    Mr. Massie. Is it a political science degree?
    Mr. Kerry. Yes, political science.
    Mr. Massie. So how do you get a----
    Mr. Kerry. To my regret.
    Mr. Massie [continuing]. Bachelor of Arts in a science?
    Mr. Kerry. Well, it is liberal arts education and degree. 
It is a Bachelor.
    Mr. Massie. Okay, so it is not really science. So I think 
it is somewhat appropriate that somebody with a pseudoscience 
degree is here pushing pseudoscience in front of our committee 
today.
    I want to ask you----
    Mr. Kerry. Are you serious? I mean, this is really 
seriously happening here?
    [Laughter.]
    Mr. Massie. You know what? It is serious, you are calling 
the President's Cabinet a ``kangaroo court.'' Is that serious?
    Mr. Kerry. I am not calling his Cabinet a ``kangaroo 
court.'' I am calling this committee that he is putting 
together a ``kangaroo committee.''
    Mr. Massie. Are you saying that he does not have educated 
adults there now?
    Mr. Kerry. I do not know who it has yet because it is 
secret.
    Mr. Massie. Well, you said it in your testimony.
    Mr. Kerry. Why would he have to have a secret analysis of 
climate change?
    Mr. Massie. Let's get back to the----
    Mr. Kerry. Why does the President need to keep it secret?
    Mr. Massie [continuing]. science of it. Let's get back to 
the science of it.
    Mr. Kerry. But it is not science. You are not quoting 
science.
    Mr. Massie. Well, you are the science expert. You got the 
political science degree.
    Look, let me ask you this: What is the consensus on parts 
per million of CO2 in the atmosphere?
    Mr. Kerry. About 4-0-6, 406 today.
    Mr. Massie. Okay, 406. Are you aware----
    Mr. Kerry. Three-hundred-fifty being the level that 
scientists have said is dangerous.
    Mr. Massie. Okay. Are you aware--350 is dangerous, wow. Are 
you aware that since mammals have walked the planet, the 
average has been over 1,000 parts per million?
    Mr. Kerry. Yes, but we were not walking the planet. Let me 
just share with you that we now know that definitively at no 
point during at least the past 800,000 years has atmosphere CO2 
been as high as it is today. When I was in the South Pole--I 
was not on the South Pole. When I was in McMurdo, we could not 
get to the South Pole because of the weather, but I was given a 
vial of air which said on it, ``Cleanest air in the world.'' It 
was 401.6 parts per million. That is 50 parts per million 
already over what scientists say is acceptable.
    Mr. Massie. The reason you chose 800,000 years ago is 
because for 200 million years before that, it was greater than 
it is today, and I am going to submit for the record----
    Mr. Kerry. Yes, but there were not human beings--I mean, 
that was a different world, folks. We did not have 7 billion 
people yet.
    Mr. Massie. Well, so how did it get to 2,000 parts per 
million if we humans were not here?
    Mr. Kerry. Because there were all kinds of geologic events 
happening on Earth which spewed up----
    Mr. Massie. Did geology stop when we got on the planet?
    Mr. Kerry. Mr. Chairman, I--this I just not a serious 
conversation.
    Mr. Massie. Your testimony is not serious.
    [Laughter.]
    Mr. Massie. I agree. When you cannot answer the question, 
that is the best answer you got----
    Mr. Kerry. I did answer.
    Mr. Massie. I submit for the record an article called ``The 
CO2 Deficit.''
    Chairman Cummings. Without objection, so ordered.
    Mr. Massie. Thank you.

    [The article, "The CO2 Deficit", is available at: 
docs.house.gov.]

    Mr. Massie. Secretary Kerry, you avoided my colleague's 
question about how do you pay for it, but I want to ask: What 
is your solution to comply with the Paris Accord requirements? 
Like what would you do?
    Mr. Kerry. I beg to differ with you. I did not avoid the 
question. I said there are many ways to pay for it----
    Mr. Massie. He just asked for one.
    Mr. Kerry. I did. I talked about the carbon pricing is one 
way to pay for change. There are all kinds of other things we 
could do. One would be to not give a trillion dollars worth of 
tax benefits to the top 1 percent of Americans. I am one of 
them. I did not deserve to get that tax cut--nobody did in this 
country--at the expense of average folks who cannot make ends 
meet. So that would be a fair way to start.
    Mr. Massie. You do not want to politicize this, but you 
just played the one-percent card.
    Mr. Kerry. No, I actually played a moral judgment about 
what is appropriate in building a civil society. That is what I 
did.
    Mr. Massie. What my colleague Mr. Comer from Kentucky knows 
is----
    Mr. Kerry. That is a----
    Mr. Massie [continuing]. that this will fall on the poorest 
of the poor. It is regressive----
    Mr. Kerry. No, you are wrong. You are absolutely----
    Mr. Massie [continuing]. when you base the price of energy 
in Kentucky or Massachusetts or Pennsylvania or France or 
wherever----
    Mr. Kerry. Congressman, that is absolutely----
    Mr. Massie [continuing]. whichever house you are staying 
in.
    Mr. Kerry. That is absolutely incorrect that it would fall 
on the poorest people because if you do it right, which has not 
been done here for a little while, if you look at the tax 
legislation, there are all kinds of ways to make sure that 
people at the bottom end and people struggling to get into the 
middle class can be rewarded. And that is not what has 
happened.
    Mr. Massie. So soak the rich----
    Mr. Kerry. If you look at the distribution, we have the 
most unequal distribution of income in America that we have had 
since the 1920's when we did not have an income tax. We have a 
country in which 51 percent of America's income is going to 1 
percent of Americans. That is not a sustainable political 
equation.
    Mr. Massie. We have a country--you want to use 1920's as--
--
    Mr. Kerry. People need to stop and think about that.
    Mr. Massie [continuing]. the benchmark----
    Chairman Cummings. The gentleman's time has expired.
    Mr. Massie [continuing]. people of this country are far 
better.
    Chairman Cummings. The gentleman's time has expired.
    Mr. Krishnamoorthi?
    Mr. Krishnamoorthi. Thank you, Secretary Kerry and 
Secretary Hagel, for joining us.
    Secretary Kerry, you mentioned that solar is now cheaper 
than coal and, in fact, the solar industry has doubled the 
number of jobs in the coal industry, 350,000 versus 175,000. As 
chair of the bipartisan congressional Solar Caucus, I want to 
thank you for making the point with regard to the decreasing 
costs of solar power.
    I want to turn to this panel that the White House is 
convening. The person who is reportedly spearheading the White 
House Climate Change Panel, Climate Security Panel, is called 
William Happer, who has a long history of downplaying and 
denying climate change.
    In 2010, Dr. Happer testified before the House Select 
Committee on Energy and Global Warming, and he said the 
following: ``The warming will be small compared to the natural 
fluctuations in the Earth's temperature,'' and that the warming 
and increased CO2 will be good for mankind. Do you agree with 
Dr. Happer that this increased CO2 will be good for mankind?
    Mr. Kerry. No. Clearly, I do not. I think it is similar to 
the argument that was just being made. No. The problem we have 
today is that greenhouse gases--I mean, this is basic science. 
Why is it called a ``greenhouse''? Because it behaves like a 
greenhouse. The heat is contained within the Earth's atmosphere 
and trapped, and as these gases gather in the atmosphere, they 
are what is responsible for the continual warming. It is sort 
of basic scientific fact. And the result is the amount of 
carbon--the estimates by scientists are, I forget the exact 
number of gigatons, but we are going to have to get massive 
giga-tonnage of CO2 out of the atmosphere. We are going to have 
to reduce it to a net zero, net carbon, no carbon, low carbon 
economy by about, let's say, 2050 is the accepted level. And 
between now and then, we have plenty of time to make the 
changes if we are smart and committed to making those changes. 
But the amount of CO2 we have today is accelerating, and, 
unfortunately, China, even as they are moving rapidly into the 
solar market, and even as they have closed some old coal-fired 
power plants, are geared up to bring 250 megawatts of coal-
fired power online. India, the same.
    Mr. Krishnamoorthi. Secretary Kerry, I know that Mr. Massie 
has a science degree. I have a B.S. in mechanical engineering. 
Of course, I practice the B.S. part now on Capitol Hill. But 
Dr. Happer recently compared climate science to Nazi 
propaganda. He said, ``This is George Orwell. The Germans are 
the master race,'' referring to climate change. ``The Jews are 
the scum of the Earth. It is that kind of propaganda.'' Those 
were Dr. Happer's words. In a 2014 interview, Dr. Happer said, 
and I quote, ``The demonization of carbon dioxide is just like 
the demonization of poor Jews under Hitler. Carbon dioxide is 
actually a benefit to the world, and so were the Jews.''
    Do you have a comment on Dr. Happer's comments?
    Mr. Kerry. I think I have already commented on his 
comments. I said it earlier. I think what we really ought to 
try to focus on is the bigger issue here. Why after 20 years of 
consensus, Republican and Democrat alike, why after generals 
and admirals and guys who have laid their lives on the line for 
their entire life for our country and have made the judgment 
already, Republican and Democrat alike have acted on this, why 
suddenly should we have a secret effort within the White House, 
led by somebody like Mr. Happer, or being put together by him, 
at least, that is geared to reevaluate something where there is 
no legitimate call for that reevaluation? That is really the 
issue.
    Mr. Krishnamoorthi. Secretary Hagel, what is your comment 
or thought about why this would be a secretive panel? What 
purpose would secluding these people in closed proceedings have 
with regard to this issue on the part of the White House?
    Mr. Hagel. Well, one would have to suspect the motive 
behind the effort to put together this panel. If the motive was 
transparent, clear, try to find out what we should do in this 
country about this issue based on science, based on facts, 
based on what we do know today, then why wouldn't you do it 
transparently? Why wouldn't you open it up and involve 
everybody and want others' opinion?
    So I would answer your question that way. I do not know 
what is behind it.
    Mr. Krishnamoorthi. What are they hiding? Right.
    Mr. Hagel. But I think anytime it is that closed, it is 
always--it brings about a certain amount of suspicion as to 
what is the motive behind it. And as you have noted Mr. 
Happer's background and comments, it is not very enlightening 
or it is not very likely that they would choose to open this up 
and make this a very transparent process for the good of the 
cause and for what the objective should be.
    Mr. Krishnamoorthi. Thank you.
    Chairman Cummings. Mr. Armstrong.
    Mr. Armstrong. Thank you, Mr. Chairman. And thank you both 
for being here, and I do truly respect your service to this 
country and also your ability to do these hearings well. So 
with that being started, I actually have a national--I want to 
bring it back to national security because I think there is 
part of a conversation on climate change we do not.
    But just before that, I do want to just say that if we are 
going to say things like stopping the politics and all of that 
and then also infer that it is the free market that ended up 
causing most of the coal industry's problems, without at least 
recognizing that there was a combination of unrealistic Federal 
regulation, tax credits, and allowing primacy on an electric 
grid that was neither designed nor prepared for that, it seems 
to be a little disingenuous, particularly when it was not that 
long ago where we had a Presidential candidate that said she 
was going to put coal workers and coal miners out of business.
    But that being said, I am from North Dakota, and I think 
one of the things for national security is due to technical 
advances in the oil and gas industry, one of the best parts 
about it is we produce it at home. We are closest as we have 
ever been in this country's history to being food and energy 
secure. And I would just say in recent events we have seen that 
happen because we have become less reliant on Middle Eastern 
oil. I mean, just two different events that have happened in 
the very recent past, whether it is the problems in Venezuela 
or even earlier this week designating Iran's Revolutionary 
Guard as a terrorism activity.
    Now, I know there has been some fluctuation in the oil 
market, but not that long ago, 20 years ago, these types of 
events would have caused an incredible spike in oil prices, 
throwing our economy into issues.
    But I want to go to wind and solar because I support it 
all. I really do. I believe in an all-of-the-above energy 
policy. But one of the things I think we forget to talk about 
is we think wind turbines blow or the sun shines and then all 
of a sudden houses are powered and our cars drive. But there is 
a big middle part in the middle of this, and that is rare-earth 
metals, and this has to be a conversation regarding national 
security because, whether it is lithium, cobalt--I cannot say 
some of them because I definitely have a B.S. in B.S.
    [Laughter.]
    Mr. Armstrong. But, I mean, rare-earth metals, they are 
actually relatively common, but they are extremely labor-
intensive to separate them from a rock, and it requires 
chemical cocktails that produce tremendous amounts of waste and 
leak acids, heavy metals, and radioactive elements into the 
water and the environment. But I think more importantly from a 
national security standpoint, China controls about 90 percent 
of the rare-earth metal environment, and we know, regardless of 
where we are at on all of this, they do not have the Federal 
regulatory environment we do, nor do the other developing 
countries.
    As we transition to more batteries, whether it is large-
scale storage batteries for solar, large-scale batteries for 
wind, car batteries, as we move to more electric, market 
pressures that are going to create processing--or incentives 
for processing plants in countries that, again, have none of 
our environmental incentives to keep--I do not want to export 
pollution, and I think we have to be considering to have that 
conversation. And the supply chain and disruption in the supply 
chain has to be a conversation if we are talking about 
transitioning into these things.
    A single Tesla uses about 15 pounds worth of lithium, and 
current production of these, again, is in China, and there is 
no separating the Chinese Government from Chinese business. And 
it was not that long ago when Japan detained a Chinese fishing 
captain, and China enacted a de facto ban on exporting rare-
earth metals to Japan, and it took about 48 hours for Japan to 
return the Chinese fishing captain, because as we move to 
this--and so what are the national security implications, I 
mean, as we transition and do all of this in relying on China 
for--and other developing countries, I mean, and there are some 
human rights issues in the Congo and a lot of different issues. 
But we do not talk about that part of this conversation at all. 
I have not heard it mentioned in the media. I have not heard it 
mentioned in any of the rhetoric, what I would call 
``inflammatory rhetoric,'' what I would call ``reasonable 
rhetoric.'' But we are not having this conversation because we 
are as close to energy secure as we have ever been. And as we 
transition here, we will not be. I mean, we have these metals 
here, but that mining conversation will be a bigger one. But 
how do we deal with that issue? That would be my question.
    Sorry, I am only giving you 20 seconds, but I think this is 
an important issue that we need to continue to talk about.
    Mr. Kerry. Well, Congressman, you have absolutely put your 
finger on a critical issue, and we do not talk about it enough, 
and it is serious. And it is one that I came across in the 
course of the time that I was privileged to serve as Secretary. 
China has indeed cornered that market. But also, frankly, one 
of the reasons why we need to be paying attention to what is 
happening with climate change in the Arctic, because as the 
Arctic is opening up, there are a lot of people up there now--
the Chinese included, and the Russians, who are mapping 
extraction possibilities. As you well know, Russia dropped a 
flag on the North Pole. It was kind of a tease, but the message 
of it is, ``We are here, and we are playing for the long 
term.'' We are not sufficiently on that, nor are we 
sufficiently geared up to think about what we have to be doing 
with respect to China and Russia now in terms of 5G and quantum 
computing and the whole issue of technology ``security,'' is 
the word I will use rather than--I think, you know, America has 
always been technologically secure in that regard. It is 
technology that has given us this energy incredible boost that 
we have today. That is why I am so optimistic, frankly, about 
our capacity to deal with the issue we are all talking about 
here today.
    America has DNA built on discovery, breaking barriers, 
moving forward, and that is why I think it is so critical that 
mission innovation and our technology partnership with the 
private sector--remember, in Paris, most of the Fortune 500 
companies were there supporting the endeavor. All of the big 
oil companies were there supporting the Paris agreement. And 
all of the big oil companies are currently investing in 
alternative and renewable and sustainable energy.
    So this is good for, you know, everybody, if we could come 
together around the notion of how we are going to protect 
ourselves on these rare minerals, which are critical.
    Chairman Cummings. Mr. Raskin?
    Mr. Raskin. Thank you very much, Mr. Chairman.
    We are in a civilizational emergency. Senator Kerry, 
Secretary Kerry, you make the powerful point that we have 
actually had decades of scientific consensus about the 
anthropogenic causes and the dangerous dynamics of climate 
change, and we have also had a bipartisan political consensus 
endorsing the scientific consensus that has suddenly been 
ripped apart by the anti-scientific outbursts and outlook of 
President Trump and his administration and the pseudoscientific 
dogmas of climate change deniers, obfuscators, and industry 
propagandists.
    These deniers are undermining our ability to act 
forcefully, comprehensively, and in unity to address the forest 
fires that are out of control, the hurricanes of unprecedented 
velocity, the record drought and record flooding, the rise in 
the ocean levels, the vanishing of glaciers and so on. And it 
is troubling to me that we have to waste our time simply going 
back to basics to prove what should be obvious.
    I would like to ask both of the witnesses this question: 
Secretary Kerry, starting with you, if 97 percent of the 
doctors told you that you had cancer and needed to start 
treatment immediately, would you accept their judgment and 
start treatment? Or would you say that they have not convinced 
everybody yet and hold out for years or more debate on the 
subject?
    Mr. Kerry. Well, unfortunately, I can answer that in real 
terms. I was told by one doctor I had cancer, and I did the 
treatment. If 97 doctors told me, I would redouble my efforts 
in 100,000 ways. But I think it is a measurement of the--it is 
not just the percentage. It is really measuring what they are 
saying to you and what the foundation of their analysis is. And 
it is there for everybody to judge. You just have to take the 
time to read it and make those judgments.
    Mr. Raskin. And just to twist the hypothetical a little 
bit, Secretary Hagel, let me come to you. If 97 percent of the 
scientists told you not to drink the water in the Cannon House 
Office Building because it is not potable and it would be a 
danger to you, which, unfortunately, is the truth, would you 
follow their advice? Or would you say, ``Well, three percent 
are still holding out and disagree, and so I am going to 
continue to drink the water''?
    Mr. Hagel. Well, actually, I drank the Cannon House Office 
water for five years in the 1970's, so I am still here.
    [Laughter.]
    Mr. Raskin. I take it you do not want some today.
    Mr. Hagel. Well, I would hope it is better, but----
    Mr. Raskin. I can give you some from the cooler in my 
office.
    Mr. Hagel. Thank you.
    Mr. Raskin. President Trump has called climate change--
against the vast majority of the scientific evidence and the 
weight of authority, he has called it an ``expensive hoax,'' 
``nonsense,'' and ``B.S.'' Secretary Hagel, how do you respond 
to the President calling climate change ``fake news''?
    Mr. Hagel. Well, the President says a lot of things, and I 
do not know why he says that, as you have quoted. But the facts 
are different. I know he sometimes has difficulty with facts, 
but the facts are clearly different than what he says. Whether 
he believes it or not, I do not know. I assume he does.
    But to have the first President of the United States in our 
modern history essentially say those things, disputing 
scientists, his own intelligence people, military people, 
people who have been at this a long time, is really troubling 
because it sends a message not only to the United States but to 
the world that we are abdicating our responsibilities here in 
this country and around the world on one of the most vital 
subjects and topics that we are dealing with today, certainly 
we will be dealing with in the future.
    Mr. Raskin. Well, I appreciate that point very much, and I 
wonder, Secretary Kerry, if you would care to elaborate on just 
this point. What is the message sent to the rest of the world? 
Does it undermine and squander America's moral leadership to 
have the President denying the existence of climate change? And 
does it give cover to countries that want to opt out of 
participation in efforts to reduce greenhouse gas emissions?
    Mr. Kerry. I very much appreciate the question, and I 
particularly want to address it to our friends here in the 
Republican Party, some of whom have questioned the science to 
date. And let me just say this: One hundred and ninety-six 
countries came together, their presidents, their prime 
ministers, their finance ministers, their environment 
ministers, all of them came to an agreement that this is 
happening and that we have to move.
    Up until Paris, China was opposed to us. China did not move 
at all. In fact, Copenhagen four years earlier, the meeting 
failed because China led the G-77 to say, ``Wait a minute. We 
are a developing country. You are the developed countries. You 
are the guys who caused this. Why should we have to do 
anything?'' So we got nothing done.
    Now, President Obama authorized me to go to China, and I 
went and met with President Xi, and we negotiated about how to 
approach the Paris, and he agreed finally that he was ready to 
move and do something about climate. Why did he move? He moved 
because his Governors and his mayors were complaining that the 
citizens were complaining to them about the quality of the 
water, the quality of the air, you could not breathe in Beijing 
or other cities, and they were feeling the impact of climate 
change. So China joined the United States, leading the world to 
Paris, where all of these people responsible for their 
governments made the decision to move forward.
    I would say to my friends on the other side of the aisle, 
when I was on the aisle, if I am wrong, Al Gore is wrong, all 
of those ministers and presidents are wrong, and every country 
that joined this--Iran--and we do this the right way, the worst 
thing that will happen is we have cleaner air, we are 
healthier, we have less cancer, less pollution, we are energy 
independent, we are clean in our energy, we are living up to 
our environmental responsibility, we pass on a better Earth to 
the next generation. That is if we are wrong, because all those 
good things will come out of the investments we are talking 
about.
    What if you are wrong, if you are a denier? Catastrophe. If 
we continue down this road with every scientist telling us what 
is going to happen in 12 years with a 0.5 degree increase, and 
we are already seeing the consequences, catastrophe. History is 
going to judge what side of this people come down on, and it is 
already moving at a rate fast enough that it is making some of 
those conclusions right now.
    Chairman Cummings. Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service to your country, and 
as has been stated by my colleagues and each of you gentlemen 
today, what we hope to do in this committee is reach a 
reasonable accord regarding the reality of climate change and 
how it impacts our planet and our Nation. We are 
representatives of the American citizenry, and, thus, we are 
responsible to the citizens we serve. And yet America is, in my 
opinion, the leader of the free world and, thus, we have 
challenges on a global setting. And on that stage, we should be 
leaders regarding climate change and the reality thereof.
    And let me just say that the geological record is clear. 
The Earth's climate changes, and I believe that the debate here 
is the percentage to which mankind may have some impact upon 
that. The decisions that we make in this body affect America. 
Climate change is not restricted to the Earth. According to 
NASA, Mars also undergoes large variations over thousands of 
years that result in ``substantial shifts in the planet's 
climate, including ice ages.''
    The Scientific American publication regarding the Sun's 
cyclical change, studies indicate that sunspot activity overall 
has doubled in the last century, resulting in the Sun shining 
brighter here on Earth by a small percentage than it did 100 
years ago.
    The solar wind, according to NASA, emanates from the Sun 
and influences galactic rays that may in turn affect 
atmospheric phenomena on Earth, such as cloud cover. Scientists 
admit they have much to learn about this. It is this body that 
does not admit that there is much to learn. In statements I 
hear from my colleagues that the science is settled and mankind 
is responsible, well, I do not believe mankind is responsible 
for climate change on Mars. I do not believe mankind is 
responsible for cyclical climate change in the Sun's impact 
upon our Earth.
    What I am frightened of is the unintended consequences of 
bad legislation or international agreements that we have 
witnessed. I will not criticize my colleague from New York for 
her enthusiasm and her creativity regarding the Green New Deal. 
I shall just suggest that it would be very bad legislation and 
it would impact Americans we are sworn to serve. CO2 emissions 
in the United States have decreased markedly while emissions of 
China and India and other nations are increasing.
    You mentioned, Senator Kerry, that the oil and ga industry 
is one of the major investors in renewables and recapture 
technology. They have discovered, of course, over the course of 
doing business that clean, efficient, safe business is good 
business. We should be encouraging the American model of the 
fossil fuel energy industry not regulating it out of business. 
We should certainly not send this business to nations that have 
virtually zero standards compared to American standards.
    Secretary Hagel, in your opinion, would bills like the 
Green New Deal--and, again, I say this respectfully to my 
colleague from New York, but by her own memo, it would attempt 
to de-commission every nuclear plant in 10 years and replace 
every building in the U.S. Would that in any way encourage 
China or India to regulate their own industries, Secretary?
    Mr. Hagel. Thank you. Well, first, I have not read the 
Green New Deal proposal totally. I have read in the papers 
their----
    Mr. Higgins. Would anything we do in America impact what 
decisions are made in China regarding regulating their own 
fossil fuel industries and expansion?
    Mr. Hagel. Well, there is no question that what America 
does has an effect on other countries, certainly. And 
marketplace regulations----
    Mr. Higgins. You think that American legislation would 
cause China and India to change their legislation?
    Mr. Hagel. Well, wherever----
    Mr. Higgins. Why not just take our business?
    Mr. Hagel. Wherever you are driving this, I am not here to 
testify for the Green New Deal or defend it. That is not my 
role here this morning. I have not even read it in total. What 
I am here to talk about--and we have been talking about it--in 
answer to your question, generally the way the world works, as 
you know, America has been the leader in the world in every 
respect since World War II. Everybody emulates us, follows us 
in some way. We dominate the world still.
    Now, that is changing. It is shifting. Generations, 
technology have an effect on all of that. But this issue of 
climate change is one that has a futuristic dynamic to it, 
clearly, not just because of the impacts and consequences of 
climate change, but for our leadership in the world and how 
China will respond.
    Mr. Higgins. Pardon me, Mr. Secretary, but my time has 
expired. Mr. Chairman, I would just ask a yes or no question of 
the gentleman.
    Is American industry leading the world in clean evolution 
of the fossil fuel industry?
    Mr. Hagel. China is doing very well, but I think America is 
still the leader in the world.
    Mr. Higgins. I yield back. Thank you for your indulgence.
    Chairman Cummings. Thank you very much.
    Ms. Ocasio-Cortez.
    Ms. Ocasio-Cortez. Thank you, Mr. Chair.
    Secretary Hagel, is climate change and its attendant 
effects from rising sea levels, intensifying temperatures and 
so on, currently contributing to the following global crises: 
the destruction or damage done to U.S. military bases 
domestically and across the world?
    Mr. Hagel. Yes.
    Ms. Ocasio-Cortez. Is it contributing to the erosion of a 
healthy environment for our military veterans and current 
servicemembers?
    Mr. Hagel. Yes.
    Ms. Ocasio-Cortez. Is climate change contributing to 
increased disease factors, including the exacerbation of global 
outbreaks?
    Mr. Hagel. Yes, and I mentioned that in my comments.
    Ms. Ocasio-Cortez. Is it contributing to increased 
migration patterns as referenced by Secretary Kerry in his 
opening statement? Is it contributing to increased migration 
patterns in Europe and the United States?
    Mr. Hagel. Clearly, in the Pacific, too.
    Ms. Ocasio-Cortez. And is it also contributing to increased 
social instability throughout the world?
    Mr. Hagel. Yes.
    Ms. Ocasio-Cortez. Thank you for establishing that. I know 
you both have already spoken to it, but with the debate over 
what is already factually established, sometimes we have to 
reassert these things.
    Mr. Hagel. By the way, Congresswoman, this issue of climate 
change is what, as you know, has been referred to often as a 
``threat multiplier.'' It multiplies and multiplies threats and 
more threats, and we have got to anticipate that, and we factor 
that in whatever we are going to do about it.
    Ms. Ocasio-Cortez. Thank you. Thank you, Secretary Hagel.
    Do you think that neglecting to address these threats could 
contribute to the loss of American life?
    Mr. Hagel. Yes.
    Ms. Ocasio-Cortez. And do you think that denial or even 
delaying in that action could cost us American lives?
    Mr. Hagel. Yes.
    Ms. Ocasio-Cortez. Secretary Kerry, do you think that 
appointing a Federal panel that questions 26 years of 
established climate science be responsible for the loss of 
American life?
    Mr. Kerry. It could be.
    Ms. Ocasio-Cortez. So I think what we have laid out here is 
a very clear moral problem, and in terms of leadership, if we 
fail to act, or even if we delay in acting, we will have blood 
on our hands. I do not know if you are allowed to agree with 
that, Secretary Kerry or Secretary Hagel. Would you agree with 
that assessment?
    Mr. Kerry. Well, if I can--here is what is happening, and 
it is happening. We are not responding. No country in the world 
is doing enough to be able to help the world meet the goal of 
holding the Earth's temperature rise to two degrees Centigrade. 
And it is absolutely certainly decided as a matter of 
scientific fact, two and two is four, four and four is eight. 
We can predict when the Sun and Moon will rise because we have 
tables to do it with. With the same certainty, we know that 
human beings are responsible for the rise of CO2 contributing 
to climate change. So we have to lower it. And the fact is we 
are currently on track not to hit two degrees but to hit four 
to four-point-five degrees in this century.
    So as long as we do nothing, Congresswoman, we are 
complicit in our acts of omission and commission of what we are 
doing to choose for our energy, et cetera. We are going to 
contribute to people dying. We are going to contribute to 
trillions of dollars of damage of property, and we will change 
the face of life on this planet.
    Ms. Ocasio-Cortez. Thank you. Thank you, Secretary Kerry.
    You know, I would be remiss if I did not talk or address 
some of the comments made across the aisle, and while I am 
incredibly flattered that the ranking member and many members 
across the aisle seem to be so enamored with a non-binding 
resolution presented by a freshman Congresswoman sworn in three 
months ago, I think that ironically, despite that fixation, it 
does not seem that they have actually read the contents of the 
proposed and presented resolution. And so I would encourage 
that we do not need Cliff Notes for a 14-page resolution that 
was designed to be read in plain English by the American 
people. So I would encourage my colleagues to actually read the 
resolution presented so that they can speak to it responsibly 
and respectfully.
    I would also like to highlight that it is not responsible 
to complain about anything that we dislike as ``socialism,'' 
particularly when many of our colleagues across the aisle are 
more than happy to support millions and potentially billions of 
dollars in Government subsidies and carveouts for the oil and 
gas and fossil fuel industry. So the fact that subsidies for 
fossil fuel corporations are somehow smart but subsidies for 
the development of solar panels is ``socialist'' is just bad 
faith and it is incorrect. And I think it is important to 
support and propose the fact that we need bold action.
    So I just have one final question. With any global threat 
on this scale in American history, has it been met with a war-
time level scale of Government mobilization?
    Chairman Cummings. The gentlelady's time has expired, but 
you may answer the question. You can ask it again. He did not 
hear you.
    Ms. Ocasio-Cortez. Sure. In American history, when we have 
been presented with a threat on this scale, have we met that 
threat, the threat on the scale of climate change, have we met 
that within economic and mobilization on the scale of a war-
time level mobilization?
    Mr. Kerry. Yes, we have, and we have done it with 
remarkable consequence for the planet. And I believe we can and 
I hope we will--we have time over the course of the next years 
to make thoughtful judgments about energy policy, which is the 
solution to climate change.
    Ms. Ocasio-Cortez. Thank you very much, Secretary.
    Chairman Cummings. Thank you very much.
    Mr. Gibbs.
    Mr. Gibbs. Thank you.
    Witnesses, I represent the energy-rich area of eastern Ohio 
that is situated in the heart of the Utica and Marcellus shale 
formations. There are over a thousand million cubic feet per 
square mile of natural gas, according to the experts. The shale 
revolution has transformed the economy in eastern Ohio, and it 
has created hundreds of jobs, and we have seen that across the 
country. One of the best things we have seen in the downturn we 
had back 2008 and 2009 and 2010 was the resurgence of our oil 
and gas industry.
    Policy proposals from the other side of the aisle want to 
erase this economic growth and replace our current energy 
portfolio with more expensive, less reliable alternatives. 
Switching exclusively to more expensive forms of energy will 
have a devastating effect on the competitiveness of our 
businesses globally and cost us jobs.
    My district is also heavily reliant on agriculture. Many of 
the policy proposals being debated by the members opposite 
among themselves are an assault on agriculture.
    I come from a livestock background, and I know the 
importance of how to feed this country and be environmentally 
safe and provide for an economic foundation for our rural 
communities with reliable and affordable energy.
    Mr. Secretary, according to the think tank Progress, the 
Green New Deal would reinstate the Obama Administration WOTUS 
rule in its entirety. I have found this land and water grab 
from the beginning--I have fought it from the beginning and 
been doing everything in my power to provide certainty for 
farmers, ranchers, small businesses, landowners, and even local 
government.
    Secretary Kerry, do you hope that the Obama 
Administration's WOTUS rule will be reinstated in its entirety?
    Mr. Kerry. Would you just say the question?
    Mr. Gibbs. The WOTUS rule, Waters of the United States, do 
you hope that will be reinstated?
    Mr. Kerry. The--which be reinstated?
    Mr. Gibbs. Waters of the United States, the WOTUS rule that 
expands the Federal jurisdiction of waters of the United 
States.
    Mr. Kerry. Oh, the watershed. It would be impossible--I 
mean, in principle, no, but I think you have got to look at 
what particular issue is at stake here.
    Mr. Gibbs. Okay. I will go on because obviously you do not 
know what I am talking about. Innovation and technology has 
improved with oil drilling, especially from fracking and 
horizontal drilling, and as we know, we have seen the emissions 
of this country, carbon emissions, drop, I think it was--I had 
it here a second ago--14 percent from 2005 to 2017, but China 
and India have increased by 21 percent. Mr. Kerry, my 
understanding is that the Green New Deal would eliminate oil 
and gas exploration. Do you support that that would happen, 
eliminate oil and gas exploration in the United States?
    Mr. Kerry. I believe, Congressman, first of all, I think--
and I have said this many, many times--gas is going to be a 
component of our energy mix for some time to come because we 
have to be able to deal with baseload. And, obviously, when the 
Sun is not shining, when the wind is not blowing, or the waters 
are not flowing for hydro, we have got some challenges. But we 
are not moving, frankly, in the way that we could be moving to 
provide the alternatives rapidly because, I mean, gas gives us 
a 50-percent gain over other fossil fuels in the reduction of 
emissions.
    Mr. Gibbs. Okay. I appreciate----
    Mr. Kerry. So it is a step forward.
    Mr. Gibbs. Okay. I want to move on.
    Mr. Kerry. In the end, though----
    Mr. Gibbs. I want to move on because I----
    Mr. Kerry [continuing]. we need a net low-/no-carbon 
economy, and we have got to begin moving toward that.
    Mr. Gibbs. Okay. I want to talk about--you were involved in 
the Paris Climate Treaty, correct?
    Mr. Kerry. Super-involved, yes.
    Mr. Gibbs. Is it correct that in that agreement we would 
let China increase their carbon emissions to 2030, to peak out 
at 2030, and then that would be their benchmark, where ours was 
immediate and there was no enforcement to put on China to cut 
their carbon emissions, so that was a deal going out more than 
a decade with no enforcement actions, but it was a good----
    Mr. Kerry. Congressman, let me try to explain to you what 
we sought to do in Paris. In the Kyoto Agreement, which Senator 
Hagel has referred to, we had a mandatory reduction enforceable 
mechanism. Nobody wanted it. We could not pass it because it 
was not shared in the same level. And so in approaching Paris, 
we came at it differently. We had each country joining to 
design a plan because the theory was that if 195 or 196 
countries came together, all of them simultaneously agreeing to 
lower emissions and move in the same direction, the signal to 
the marketplace would be extraordinary. And it was.
    The next year, $358 billion was invested in alternative 
renewable fuel. For the first time in history, more money went 
into alternative and sustainable fuel than fossil fuel. So we 
accomplished the goal, and the theory was----
    Mr. Gibbs. Were some of those dollars----
    Mr. Kerry. I beg your pardon?
    Mr. Gibbs. Were some of those dollars a transfer of wealth 
from the United States to these other countries that signed on?
    Mr. Kerry. I am sorry. What?
    Mr. Gibbs. Were some of those dollars a transfer of wealth 
from the United States to----
    Mr. Kerry. No. Actually, each--that is just the total 
amount of investment that the marketplace put into alternative. 
What happened in America happened in America. What happened in 
Europe happened in Europe. But the point is that collectively 
we were moving in the direction of trying to lower emissions, 
and every country made a decision to do that.
    Now, China has. China has reduced its energy intensity. It 
has closed coal-fired power plants. It is a leading deployer of 
solar energy at this point in time. Is it moving fast enough? 
No.
    Mr. Gibbs. Isn't it through they are still building coal 
plants?
    Mr. Kerry. I beg your pardon?
    Mr. Gibbs. Isn't it true they are still building coal 
plants?
    Mr. Kerry. Yes, unfortunately. They are building a next 
generation, which they are trying to claim is Okay, and we are 
trying to tell them, no, it is not Okay. So we are still in 
this struggle. But we have done better than where we were. The 
point is we do not want to lose the momentum, and by having a 
President who, frankly, has pulled out of Paris and not offered 
leadership, we are losing that momentum. And the last meeting 
of the U.N. Conference of the parties in Katowice, Poland, was 
a reflection of the lack of American leadership, frankly.
    Chairman Cummings. Mr. Sarbanes?
    Mr. Sarbanes. Thank you, Mr. Chairman. Thanks to both of 
you for your incredible service to the country over decades. 
And thank you for continuing your service to the country by 
being here today to raise a clarion call about the impact of 
climate change, particularly as it affects our national 
security. Nobody is in a better position to make those 
observations than the two of you.
    When I am trying to figure out why political leaders are 
moving in the opposite direction from where the public is 
moving or where science in this case is moving or the experts 
are moving, I have found it pretty useful up here to follow the 
money. And I can tell you, when you look back over this issue 
of climate change, you have to conclude that the position being 
taken by some--and I put the President in this category--is 
being driven more by campaign donors, by the fossil fuel 
industry, industry front groups, than it is by any real dispute 
or genuine dispute over the science that is involved here. And 
I want to cite an example.
    The Mercer family contributed $15 million to President 
Trump's 2016 campaign, and it funds a variety of climate denial 
front groups, including the Heartland Institute and the CO2 
Coalition. Both of those groups have received funding from the 
fossil fuel industry in the past.
    Since the 2016 election, surprise, surprise, the Heartland 
Institute, the CO2 Coalition, and other climate change denial 
groups have been pushing the administration to create this 
panel that you spoke about today that is publicly--we think 
will publicly dispute the science of climate change.
    The former head of the CO2 coalition is none other than, 
today, already, who is now employed at the White House, and he 
is the one trying to set up this panel that will deny climate 
change.
    Secretary Hagel, I assume you agree that the Federal 
Government should be making decisions about climate change 
based on facts and not based on the influence of campaign 
donors or other money that comes at the system?
    Mr. Hagel. Yes.
    Mr. Sarbanes. Secretary Kerry, do you think that a panel 
that the fossil fuel industry and the President's campaign 
donors have been advocating for is likely to produce meaningful 
and reliable results, given what you know about how politics 
works up here on the Hill and in Washington?
    Mr. Kerry. No.
    Mr. Sarbanes. The fossil fuel industry has funded efforts 
for years to confuse and mislead the public on climate science, 
but here is the interesting development. Even that industry now 
I think increasingly persuaded, as you pointed to with some of 
your remarks today, and certainly motivated by the economic 
models that have shifted dramatically toward more renewable 
energy is making sense, even that industry is beginning to 
shift its position, leaving the Trump administration and the 
President's position really increasingly as an outlier.
    So, for example, Shell Corporation recently publicly 
committed to meeting the goals of the Paris Agreement, as I 
understand it, saying the need for urgent action in response to 
climate change has become ever more obvious since the signing 
of the Paris Agreement, and thank you, Secretary Kerry, for 
your work on that effort. And, recently, Shell quit a major 
fossil fuel lobbying group, the American Fuel and Petrochemical 
Manufacturers, citing ``material misalignment on climate-
related policy positions,'' and explaining that the lobbying 
group had failed to support the Paris Agreement and had 
supported the Trump administration's rollback of EPA's Clean 
Power Plan.
    I assume, Secretary Kerry--and Secretary Hagel, if you 
would like to comment as well--that it is at least encouraging 
that some members of that industry are stepping up and making 
the argument that we have to take dramatic action on climate 
change and are moving away from some of the industry groups and 
others that still seem to be captive to these other interests 
and viewpoints that I think are on the wrong side of history.
    Mr. Kerry. Well, I think Shell just pulled out--Shell Oil 
just pulled out of one of the associations--fuel associations 
that they were members of because the association itself was 
taking a denier attitude on climate and Shell believes that it 
is happening.
    I would add also, when I was negotiating the Senate bill 
back with Lindsey Graham and Joe Lieberman and the folks in the 
Senate, we had the environment community at the table; we had 
the faith-based community at the table. We had the big oil at 
the table; we had the nuclear industry at the table; and we had 
agreement. And I reached a point where BP, Shell, Chevron, 
ExxonMobil--Rex Tillerson was there at the time--had all agreed 
to accept a price on carbon. And we were about to announce it 
publicly on a Monday, and on the Friday before the Monday, the 
president of BP calls me and says, ``Sorry, I cannot be there. 
We just had a blowout in the gulf.'' And so we had to postpone, 
and during the ensuing weeks, about $800,000 was spent in one 
state against one of our colleagues working hard on this to 
terrify him that he should pull back, which indeed he wound up 
doing, and we lost the momentum on the bill.
    So, you know, the bottom line is money has a lot to do with 
how it is spent, affecting the outcome and the attitudes on 
this issue.
    Mr. Sarbanes. Thank you.
    Secretary Hagel.
    Mr. Hagel. But that said, all the majors are moving in the 
direction that you are talking about, I noted in this paper 
yesterday. But what John is talking about, there are other 
examples, all of them, ExxonMobil, Chevron, all the big ones 
are moving in this direction. They are not giving up their oil 
resources or fracking operations. But they see where the future 
is, and every time one starts to move a little closer to a new 
era and buying into that future and planning for that future, 
that is good.
    Mr. Sarbanes. Thank you.
    Chairman Cummings. Mr. Norman.
    Mr. Norman. Thank you. Secretary Kerry and Secretary Hagel, 
thank you for coming. I appreciate you taking questions.
    Let me just say that, you know, Secretary Kerry, you 
mentioned up front that you want to get politics out of it. Yet 
then you took off on our President. You took off on some of the 
qualifications of his Cabinet. You took off on the tax plan or 
tax reductions that this party initiated. Now, if you are going 
to take politics out of it, I do not think it starts with 
criticizing the President, who I think has had other things at 
the top of his agenda like getting a stagnant economy back 
going, like dealing with rogue countries as in North Korea, 
which were a disaster prior to him coming; you know, like 
dealing with facing an immigration problem now that he is 
dealing with that have been kicked down the road and not 
addressed.
    So I think if you are going to take politics out of it, 
let's have a debate, and I disagree and I think others would 
disagree with both of you, in all due respect. There are 
scientists out there who disagree with your findings. If we are 
going to really have a discussion, let's have the Harrison 
Schmitts sit down beside each one of you, who was a geologist 
and Apollo 17 astronaut who disagrees with you. Let's have a 
Timothy Ball, who is a climatologist. Let's have a Fritz 
Vahrenholt, who has got his doctorate in chemistry. Let's have 
this guy right here in Thomas Massie, who is an MIT graduate 
and is an electrical engineer who has been off the grid with 
his house for a long time. Let's have that debate, and other 
than one station of the media, all the other stations have been 
taking it as a given that climate change is real, which some 
parts of it are real, but I think it is irresponsible for 
anybody--and I do not criticize my colleague from the other 
aisle from New York for her plan. But what I do question is 
everything has a price tag. You have got to figure out how to 
pay for something along with proposing what you want to do.
    So I think it is irresponsible to do anything otherwise 
than that, and we cannot just say at the end of the day we are 
going to pay for it with higher taxes and add a thousand new 
pages to the Federal Register. That is not what the country 
wants to hear, and that is why, quite frankly, a lot of people 
are dubious of the Green New Deal and the other things. You 
have spoken of solutions. You have not put a price tag on them. 
You have not put a detailed plan on what do we do next. And I 
come from a--we are deeply interested in this. I come from 
Catawba Nuclear Station. They supply 80 percent of our power in 
South Carolina. There are 60 plants all over the country, and 
we cannot just spout these facts and figures without having 
alternate views and take them seriously.
    Do you want to respond to that?
    Mr. Kerry. I would be delighted to, Congressman. I 
appreciate the question actually very much.
    I am not taking off against the President politically. I am 
disagreeing with him substantively. It has a profound impact 
when the President of the United States, after America's 
leadership that brought us the Paris Agreement, it is a 
profound setback to pull out of that agreement, saying to the 
American it places too great a burden on the United States and 
on our economy.
    Mr. Norman. That is your opinion.
    Mr. Kerry. Well, yes, it is a substantive issue in 
politics. The truth is it places no burden on America. The 
agreement per se is an agreement in which each country wrote 
its own plan. We wrote our plan, and we wrote our plan for 
Americans, by Americans, with American help from Fortune 500 
companies, including the major oil companies who supported the 
Paris Agreement.
    So we have a substantive difference, but the profound 
impact of the President of the United States pulling away from 
it and speaking the language of a denier has a profound 
negative impact on our ability to meet the challenge and deal. 
When the President says the planet is freezing, record low 
temperatures, our global warming scientists are stuck in ice, 
he is mocking it. That is a mockery statement. When he says, 
``I believe in clean air, immaculate air, but I do not believe 
in climate change''--he says, ``I do not believe in climate 
change,'' point blank.
    Mr. Norman. Mr. Secretary, let me interrupt. I have got 12 
seconds. Let me just say I would welcome having you back. Let's 
get some alternate views of people who can debate every single 
issue that you have, and we will put a price tag----
    Mr. Kerry. I would be delighted to have it happen, but let 
me just say----
    Mr. Norman. Mr. Chairman, I ask for us to--for you to get a 
hearing set up of alternate views. Let's have these two fine 
gentlemen debate on a case-by-case, issue-by-issue point, and 
let's get into how we are going to pay for it.
    Mr. Kerry. If you are going to have alternate scientists 
in, I suggest you have John Holdren and you have, you know, Jim 
Hansen and a bunch of people who have spent a lifetime on this. 
But I will just tell you this, Congressman: Ninety-seven 
percent is not to be sneered at. You can find people, I know 
that, you can find people who will say anything in today's 
world.
    Mr. Norman. On both sides of the aisle.
    Mr. Kerry. You can find people to say anything anywhere at 
any time in this damn world we are living in today, 
unfortunately, and we have lost the capacity to decide what are 
the facts on which we as Americans are really deciding things. 
And a democracy depends on an ability to agree on what the 
facts are.
    Now, two and two is four, and the fact is that 97 percent 
of the scientists who have worked on this all their life say 
that this is no longer an issue for debate, it is beyond doubt 
that anthropogenic impact is what is responsible for the 
climate change rate--not entirely. I agree with Mr. Massie. Of 
course, there are natural occurrences that have an impact. 
Volcanoes contribute. The clouds that come from the volcanoes 
have an impact. Those enter into the models. All of this is 
difficult stuff. But no one that I know of within that 97 
percent--you ought to have the 97 to three and see where people 
come out.
    Chairman Cummings. Ms. Tlaib.
    Ms. Tlaib. Thank you, Mr. Chairman. Thank you both for your 
incredible leadership and bipartisanship on this critical 
issue.
    I want to start with a quote from Emma Lockridge in my 
district. She said, ``You cannot sacrifice people's lives.'' 
She lives near a Marathon Petroleum Oil Corporation refinery in 
southwest Detroit. She said, ``At the end of the day, they are 
killing us.'' She said, ``We already cannot breathe over here. 
And the thought that pollution could just go up and the smell 
is just too much.''
    Today's hearing makes it very clear that climate change 
threatens the health and security of each and every American, 
but the harm done by climate change will not be distributed 
equally. I welcome any of my colleagues--and I am being sincere 
about this--to please come to Michigan, come to my district and 
see what doing nothing looks like.
    According to both the October 2008 National Climate 
Assessment, climate change will have an unequal impact on poor 
communities and communities of color. The assessment explains, 
as you all know, Secretaries, multiple lines of evidence 
demonstrate that low-income communities and some communities of 
color are experiencing higher rates of exposure to adverse 
environmental conditions and social conditions that can reduce 
the resilience to the impacts of climate change.
    The report also said, ``In urban areas, disruptions in food 
supply or safety related to extreme weather or climate-related 
events are expected to unequally impact those who already 
experience food insecurity.''
    So, Secretary Kerry, do you agree that climate change will 
disproportionate harm low-income communities and communities of 
color?
    Mr. Kerry. Yes, absolutely, without any question. I mean, 
you know, diesel trucks--it is not just climate change. Our 
environmental policy does it. Where do the diesel trucks go 
driving through a city? They go through the poor neighborhoods. 
Look at the numbers of kids in hospitals and elsewhere 
impacted. I mean, you can see this in many ways playing out.
    Ms. Tlaib. Yes, and, Secretary, I will tell you, one of 
five children have asthma in my district. We have a Right to 
Breathe Campaign to talk about these issues in a more impactful 
way. And local environmental justice advocates in Detroit have 
identified extreme heat and flooding as the key concerns for 
the Detroit Wayne County area where my district is located, and 
low-income households are at extreme risk for exposure to heat. 
A study by the University of Michigan says temperatures in 
Detroit homes alone were 4 degrees warmer than outside 
temperatures from July to September 2016, with over 35 percent 
of those home studied registered average indoor temperatures 
above 80 degrees.
    This trend can be expected to continue. The extent and 
severity of the temperature increases will depend on the amount 
of future greenhouse gas emissions, as you both know. And under 
a higher emission scenario, there will be around 65 days warmer 
than 90 degrees, and 23 days of those will be over 100 degrees 
alone in Detroit. This is a sentencing for some of our most 
vulnerable residents to death if we do not act now.
    Secretary Kerry and Secretary Hagel, what are some of the 
things that we can do to mitigate the impact of climate change 
on our most vulnerable communities?
    Mr. Hagel. Well, first recognize that we have a problem and 
then start addressing the problem, locally, nationally, 
globally. That brings us back to why we are here. What is the 
role of this committee, our energy committees, our science 
committees, commerce committees in the Congress of the United 
States? What is the role of the Governors and the state 
legislatures, city councils? And there are specific things that 
can be done, and we have been talking about a high level of 
things today in kind of a universe of world policy and national 
security policy. But you have brought it down to the ground 
level and reality, and that is where you start. But it has got 
to be a collaborative effort. It has to be a cooperative effort 
to recognize that we are doing harm to our communities, 
especially the most vulnerable people in these----
    Ms. Tlaib. I could not agree more, and I can tell you, you 
know, it starts with us in this chamber to take leadership and 
accepting the science is real and it is true. And I can tell 
you, I think in the National Climate Assessment it explains and 
talks about across the climate risk, children, older adults, 
low-income communities of color are experiencing discrimination 
affected by extreme weather the most, partially because--and 
this is to ask all of us--they are often excluded in the 
planning process. And I really truly believe that these are 
front-line communities that are already experiencing what doing 
nothing on climate change looks like. And they need to be at 
the table. And, yes, I am here speaking on their behalf, but I 
ask you both, bring them to the table as you are planning this 
process, as you are doing the advocacy and educating all of us 
in this chamber. Bring them here because when we do that, when 
we localize what is happening now and not doing nothing, 
because it is already happening across this country. Those 
voices need to be in this room.
    Thank you.
    Chairman Cummings. Thank you very much.
    Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman. And thank you both for 
your service to our Nation and in the Senate as well.
    Of course, as we all know here, both in the Senate and the 
House, whenever we cosponsor a bill or a resolution, it is 
because we support it. We would love to get a vote on it, and I 
think all of us pretty much would admit that and agree to it, 
although a ``present'' vote, as you mentioned earlier, was a 
political statement. As a general rule, when we cosponsor 
things, it is because we support it.
    The Green New Deal as a resolution is important because it 
sets forth a precedent, a clear choice for the American people. 
It sets forth a clear choice between two parties on a very 
important issue and what we believe and how best to address it.
    On the one side, for example--and, by the way, we have had 
92, I believe it is, Democrats in the House cosponsor the Green 
New Deal; virtually everyone running for President in the 
Democratic Party in the Senate has signed on to it. So this is 
a statement of where the party is on the solution for the 
climate issues, and they believe that we must move to a 100 
percent zero emission energy position within 10 years--never 
mind the fact that this could cause a potential nearly 300 
percent increase in household energy bills, never mind the fact 
that it would require rebuilding or upgrading over 100 million 
buildings, never mind we are looking at nearly 300,000 cars and 
trucks that would need to be replaced by electric vehicles, 
never mind it would take half--the Government would take over 
half of our economy at a cost estimated at $93 trillion. I 
mean, that is the GDP of the entire world combined. A central 
planning committee would have to be set up with this.
    On the other side, you have groups who believe in free 
market enterprise, believe in federalism, believe in 
competition, capitalism, believe that the best way to address 
this is to get the Federal Government out of it as much as 
possible and allow the free market to do what it does best. And 
I certainly hold to that.
    I want to see us drive all forms of energy, an all-of-the-
above strategy to incentivize competition, to eliminate the 
barriers that currently exist, and for all of this reason, when 
we get back from Easter, I am going to the House floor to try 
to force a vote on this. The American people need to know where 
their Representatives stand on this issue, and I am putting 
forth a discharge position so the American people can know. And 
I hope my Democrat colleagues will not vote ``present'' but 
will stand up. Fifteen in this committee have cosponsored this. 
The American people need to know where their Representatives 
stand on these two sides of a very important issue, and so I 
would hope that we would be able to get some cosponsors or some 
signers on that discharge petition.
    I have got about a minute and a half, I want to go ahead 
and yield to the gentleman from Kentucky, Mr. Massie, the 
remainder of my time.
    Mr. Massie. Thank you, Mr. Hice.
    The question was asked earlier, what is the worst that 
could happen if the climate change alarmists are wrong? And I 
think it is a right question to ask, but the conclusions were 
wrong. Here is the worst thing that can happen or some of the 
bad things that could happen by forcing a transition to 
renewable energy too soon. We could have higher taxes, lower 
crop production, higher food prices, wasted energy reserves, 
and a foolish effort to deplete CO2, which is plant food, from 
the atmosphere, raise energy prices on the poor. We could have 
shortages and blackouts for everyone. We could spend millions 
of man-hours of effort focusing on non-pollution while losing 
focus on real pollution and real problems that we have to 
solve, like what to do with our nuclear waste, which this body 
still has not resolved.
    Let me say this: I have lived for 12 years with 100 percent 
solar, and I am aware of the struggles and the realities and 
the technical challenges that are involved. There are 
sacrifices that, frankly, not everybody wants to make. I do not 
think everybody can make those sacrifices.
    I agree with something Secretary Kerry said, and Mr. Hagel. 
China has installed about four times as much solar panels as we 
have this year in this country. They are not doing it for the 
environment. It is a market thing. It is a reason--they are 
doing it to be energy independent. And I hope that in this 
country we could use our transition not for a force of big 
government, but for a force of smaller government and more 
independence from other countries.
    Thank you. I yield back.
    Chairman Cummings. Ms. Pressley.
    Ms. Pressley. Thank you, Mr. Chairman. And thank you, 
Secretary Hagel and Secretary Kerry. I consider you both to be 
patriots with your demonstration of bipartisan work. That is 
supposed to be the work of this committee where we demonstrate 
the ultimate patriotism in prioritizing the country and the 
health of this planet over party politics and gamesmanship.
    Just indulge me with a point of personal privilege here. 
Secretary Kerry, not only do I thank you for your contributions 
to our Nation, but your contributions in my life personally. 
The opportunity to have worked for you for 11 years changed the 
trajectory of my life, and as your former schedule and now as a 
member, in hindsight I would like to say, ``I apologize.''
    [Laughter.]
    Ms. Pressley. But in all seriousness, bringing some levity 
to a very serious topic here. Secretary Kerry, in our home 
state of Massachusetts----
    Mr. Kerry. I thought you works for me for 15 years.
    Ms. Pressley. You might be right. But in our home state of 
Massachusetts, we have seen firsthand the impacts of climate 
change, from record snowfall in 2015 to four major nor'easters 
last year, resulting in record flooding, and these events can 
lead to very serious public health concerns, including 
contaminated drinking water. The gentlelady from Michigan was 
just speaking to these public health impacts.
    I want to also lift up not only the increased frequency and 
severity of asthma as well as the increase of the number of 
insects who carry diseases like Zika and West Nile.
    And so we do need to address these issues collaboratively 
on the Federal, state, and municipal level, and we have to look 
at them both in the macro and the micro. And since you have 
already spoken to the public health impacts, I wanted to just 
pick up on something in your opening statement, Secretary 
Kerry, and if you could expound upon this point since 
immigration has been a very contentious and polarizing issue 
here. And if you could just speak to the impact on migration 
and the potential for whole communities and territories to have 
to migrate and what that impact would be.
    Mr. Kerry. Thank you, Congresswoman Pressley. Let me just 
also say, as another point of personal privilege, how proud I 
am that you are here, and what an extraordinary public person 
you are and how lucky I was.
    There was an article, I think in--I think it was the New 
York Times had an article the other day about what is happening 
in Honduras where climate change is now impacting what can be 
grown at certain altitudes and what is happening, and people 
are abandoning lifetime-held land as a result of the inability 
to grow anymore, and they are migrating. They are becoming part 
of climate refugee status, which is already existent in other 
parts of the world. There are many parts of the world where 
people have had to move.
    There is an island nation, Palau; Tommy Remengesau is the 
President of that country. He has been very involved with us in 
working on oceans policy, and he is literally planning for 
where his people are going to move to. This is a nation that 
will not exist because of sea level rise already, and it is 
happening.
    So this plays to what Secretary Hagel and I have both been 
saying about--and as we have quoted many, many, many military 
people. I mean, this is not the two of us sitting here saying 
that climate change is happening, anthropogenic contribution 
causing it, and it is going to have multiplier effect. You have 
the Department of Defense, you have the U.S. Global Change 
Research Program, the National Academy of Sciences. In fact, 
every National Academy of Science in the world has agreed it is 
happening and human beings are causing it. The 
Intergovernmental Panel of Climate Change, the Office of DNI, 
former Secretary of Defense Mattis, I mean, you can run the 
list of people. They are not crazy. They are not stupid. They 
have given their life to the country. They have taken evidence 
that has been measured by scientists all around the world, and 
all of these nations have collectively made a decision that we 
seem incapable of making collectively. And we have got to stop 
and ask ourselves why that is true.
    Also, I might add, with respect to immigration because it 
is such a hot issue, obviously, we faced the imminent implosion 
of the country of Colombia. The narcotraffickers were taking it 
over, the Cali cartel, the Medellin cartel, and 13 members of 
the Supreme Court were assassinated in one room in an afternoon 
in Bogota. I mean, this country was going down.
    So rather than sort of shut them off and say we are not 
going to deal with that and just give it up as a failed state, 
we put together something in a bipartisan way. Republicans and 
Democrats came together; we created what was called ``Plan 
Colombia.'' We put $1 billion on the table. We invested with 
President Uribe. President Uribe invested in his own country, 
in his own people, showed remarkable courage because we were 
with him, and we changed the violence pattern of that country. 
Just a couple years ago, the President of the country, Juan 
Manuel Santos, won the Nobel Peace Prize for making peace with 
FARC, which had been the longest-running civil war in history.
    Why did this happen? Because we engaged. That is what we 
need to do to deal with immigration. You have got failed state-
ism happening in Nicaragua, in El Salvador and Honduras and 
Guatemala. And rather than cut them off, we should be 
increasing our effort to assist them to prevent people from 
being the victims of violence and give them a future. That is 
the way you are far more effectively going to begin to deal 
with people looking for a better life.
    Chairman Cummings. Thank you very much.
    Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. Secretary, I am amazed you said you did not want to get 
political, and then you go on a diatribe there on an issue that 
is not even the subject of this particular oversight hearing.
    Mr. Kerry. But it is part of climate change. It is part of 
climate change. Immigration----
    Mr. Meadows. The President's policy on Nicaragua and El 
Salvador is part of climate change? How is that the case?
    Mr. Kerry. Well----
    Mr. Meadows. So, Mr. Chairman, I have not interrupted a 
single person on your side of the aisle, and we get comments.
    So, Mr. Secretary, I am one of the few people here that 
actually has listened to the entire conversation today, is more 
predisposed perhaps to your message than most on my side of the 
aisle. I was a wind, solar, and geothermal expert for an 
electric utility many years ago back when the Department of 
Energy actually started. I have people on my staff that are 
looking at a carbon tax and a number of issues, and yet when we 
come in and say we want to pull out the politics and we start, 
Mr. Secretary, with all due respect, with hyperbole in some 
areas, it makes it very difficult to listen to.
    For example, your comments that would suggest that the 
unrest in Syria and the Middle East is largely a byproduct of 
climate change is just not accurate, and you know that, Mr. 
Secretary. You were the Secretary of State. Would you not agree 
that that was a little bit of hyperbole to suggest that climate 
change is the reason for the unrest and terrorist activity in 
those countries?
    Mr. Kerry. Congressman, I am sorry that, you know, perhaps 
it was a step beyond the hearing for me to comment on 
immigration, but it is obviously a big issue, and I acknowledge 
that.
    Mr. Meadows. I appreciate your comment.
    Mr. Kerry. But coming back to this, I did not say that. I 
very clearly said that climate change is not the cause of the 
war in Syria. I said that as my opening comment.
    Mr. Meadows. But in your opening comments----
    Mr. Kerry. But then I said--then I said that you have to--
--
    Mr. Meadows [continuing]. you talked about Syria.
    Mr. Kerry. But everybody in the region understands that the 
level of violence, the intensity and some of the sectarian 
component of it was added to by the million people who 
descended on Damascus. That is a known fact.
    Mr. Meadows. That is a known fact. But what is also a fact, 
Mr. Secretary----
    Mr. Kerry. I did not----
    Mr. Meadows. Hold on. What is also a known fact is 
historically that particular region has had famines, has had 
unbelievable unrest, long before there was a combustion engine.
    Mr. Kerry. Sure.
    Mr. Meadows. Long before.
    Mr. Kerry. Sure.
    Mr. Meadows. And so it is the hyperbole that makes it very 
difficult to have a bipartisan conversation where we try to 
find a solution to this.
    Mr. Kerry. But there is no hyperbole, I think, in saying, 
as I did, climate change did not cause the war in Syria, but a 
million people moving because their livestock died due to an 
unprecedented drought had an impact. That is a reality.
    Mr. Meadows. But an unprecedented drought--are you 
suggesting that droughts only started once the combustion 
engine----
    Mr. Kerry. No, no.
    Mr. Meadows. And that is my point. When you take what is a 
rational argument and extrapolate it to a point, it makes it 
very difficult for us to say everything relates to climate 
change.
    Mr. Kerry. No, it does not. And I am not here----
    Mr. Meadows. It does--well, with all due respect, it does 
for me, when we look at this. I mean----
    Mr. Kerry. I think, Congressman, I said earlier in a couple 
of answers, I made it clear that there are things that 
obviously happen naturally. There are components of the models 
that shift, and I understand that. And that is why there are 
differences between the models. But even where there have been 
differences in the models, people agree on the basic precept, 
the basic concept that human contribution to the rate of----
    Mr. Meadows. There is no doubt that human contributions 
have attributed to greenhouse gases. There is no denying as 
well that fracking has actually decreased the price of natural 
gas, which actually has changed our mix in what we have used 
for energy and lowered our greenhouse gas emissions. Would you 
not agree with that?
    Mr. Kerry. Congressman, it is absolutely--you have heard me 
advocate that we need to have gas used----
    Mr. Meadows. So you are in favor of fracking?
    Mr. Kerry. Fracking--I have accepted that fracking--I have 
accepted that fracking is currently the methodology by which we 
have been able to advance technologically to produce our----
    Mr. Meadows. But it has lowered greenhouse gas emissions.
    Mr. Kerry. But, in fairness, I will also say we do not know 
yet, we do not know the full evidence yet on whether or not 
subterranean fissures and passages may someday come back to 
haunt us. We do not have the answer to that yet. And I have----
    Mr. Meadows. Well, we do have many of those answers, and I 
will be glad to discuss in private, offline, the science on 
both of those things. Here is what I am saying, Mr. Secretary, 
and I will close with this. Let's have real discussions, and 
the real discussion right now is that fracking has lowered 
natural gas prices exponentially.
    Mr. Kerry. Absolutely.
    Mr. Meadows. To the point where we actually met the Kyoto 
Protocol guidelines without actually being a signatory on that 
particular agreement. Would you agree?
    Mr. Kerry. Fracking has been an enormous economic boon, but 
we actually do not know yet if it is going to be cost-free in 
terms of downstream impact. We just do not know that.
    Mr. Meadows. I will yield back.
    Chairman Cummings. Thank you very much.
    As we go to Mr. DeSaulnier, let me say this, Secretary 
Kerry: Although it is not directly related, your comments on 
Colombia, I got your point that engaging--Colombia was a major 
accomplishment. Major. And I guess what you were saying is that 
by engaging we were able to resolve that. Is that what you were 
saying?
    Mr. Kerry. I am saying we empowered them to be able to 
resolve it.
    Chairman Cummings. Yes.
    Mr. Kerry. They did it for themselves. At great cost, but 
they did it.
    Chairman Cummings. Yes. Mr. DeSaulnier.
    Mr. DeSaulnier. Thank you, Mr. Chairman. I want to thank 
both of you for giving the committee so much of your time. I 
sense some level of frustration. I will also tell you, you are 
two of my heroes. I imagine a time when this institution was 
more based on rational thought and analysis.
    I will admit when I was 18 and I was a resident of the 
Commonwealth of Massachusetts, I registered as a Republican 
because I wanted to vote for Ed Brooke. I tell people under 30 
now that I did that because I wanted to vote for a liberal 
Republican, and they do not believe there was such a thing.
    But times change. I have had many occasions to work with my 
colleagues on the other side, except on these big instances. So 
I want to talk about the Green New Deal, with all due respect 
to its author, and my experience in California. In the 1990's I 
was fortunate enough to be appointed by two Republican 
Governors and a Democratic Governor to the California Resources 
Board. During the Wilson administration, our peer-reviewed 
scientific panels brought to us the evidence that climate 
change was real, was going to have a significant impact on the 
state of California, the snowpack, the delta, the runoff, and 
we started to respond to it in a nonpartisan, analytical 
approach.
    So to me--and we had and we continue to have robust cost-
benefits that are peer-reviewed, that created great value, that 
included the public health benefits, which are an international 
model. But to me the most compelling thing is the economic 
argument with the exceptions, as Mr. Meadows said, there are 
things that happen that we have to consider, like fracking.
    But California, I am sorry to be parochial, because we did 
these things 20 years ago, it is sort of a given that 
renewables and alternative fuels are a good thing to the 
economy. So I would like to get a response. It strikes me that 
one of our great national crises, if we do not adhere to the 
advice you are giving us and the scientists, is our economic 
growth. I tell my kids that their kids are going to grow up in 
a world where Chinese cars are probably going to dominate the 
world if they are capable of mass-producing electric cars in 
the next five or 10 years. General Motors has indicated that 
they understand this and are putting more resources in 
alternative fuels.
    So California gets about 50 percent of the venture capital 
in the United States every year, year after year. A lot of that 
goes into tech. A lot of it goes into biomed. But a 
disproportionate amount goes into alternative fuels and 
renewables where 33 percent--when I was in the legislature, the 
utility said there is no way we can make it. They made it. They 
have surpassed it. We are talking about going to 50, 75, 100 
percent. All of those things would indicate to me that there is 
plenty of research that California and the west coast is 
leading the country when it comes to economic growth.
    One of our key things is to make sure that people who are 
left behind are not left behind, so people who are coal miners 
need to have more than just career training and job training. 
But our success in California is a partnership between the 
building trades, when Republicans supported the building 
trades, and the environmental community, where the cultural 
differences in those two groups 20 years ago came together and 
said, ``You are going to have the jobs of the future. You are 
going to be installing and maintaining these renewable fuels.''
    We have huge challenges on the alternative fuel side 
because battery electric cars or fuel cells will not require 
the maintenance that fossil fuel and internal combustion 
engines do. So maybe you could enlighten me just in your view 
of the economic benefits that go to international security for 
the United States and our leadership when it comes in terms of 
economic growth for everybody, for a middle class that does 
well and people who do not have a college degree to do well in 
a global economy that acknowledges that our dependence on 
fossil fuels, even if you were to accept the doubts of the 
science, that the economic growth is sort of inarguably there, 
that by changing the Europeans and California and the west 
coast is really leading the world and the Chinese are right 
behind us. Secretary Kerry or Secretary Hagel?
    Mr. Kerry. I have always considered myself a pro-growth 
Democrat but with sensitivity to the folks who do not always 
get the shared opportunity, and I think we have to be sensitive 
to that, and I think it is particularly important to be 
sensitive in terms of what we call ``environmental justice.''
    But the future--and I would just say to my friends here, 
the world is moving rapidly toward this transition. And the 
fastest-growing job in America today, I believe, I am told, is 
solar power technician, installer, and the second-fastest is 
wind turbine technician. So it is happening. There has been an 
88-percent reduction in the cost of solar. There has been a 69-
percent reduction in the cost of wind in the last 10 years. And 
you have to look at the trend line of what we are living with. 
The last 10 years included the hottest year in recorded 
history. The 10 years prior to that decade was the second 
hottest. The 10 years prior to that decade was the third 
hottest. There is sort of a trend line here, I think, over 30 
years. And given the science that is added to that trend line, 
when the scientists in such overwhelming number are saying this 
is what humans are causing, we have an alternative opportunity 
here to dominate a market. The global energy market is the 
biggest market ever, 4 to 5 billion users today. It will go up 
to 9 billion users in the next 30 years, and already it is a 
multi-trillion-dollar market. The market that we experienced in 
Massachusetts and California in the 1990's, when a lot of 
people made a lot of money, was fundamentally a $1 trillion 
market with 1 billion users, and yet we created more wealth 
than we have ever created. In the 1990's in America, every 
single quintile of earner of income went up.
    So I believe to have America on the sidelines not 
aggressively pursuing this market is to be contrary to the very 
success that California has had as, what, the sixth largest 
economy in the world?
    Mr. DeSaulnier. Fifth.
    Mr. Kerry. Fifth.
    Mr. DeSaulnier. Almost fourth.
    Mr. Kerry. Fifth largest economy in the world. So I hope we 
will understand this is economic opportunity. This is not cost.
    Mr. Hagel. You know, I would just add one thing. The 
reality is we are all global citizens in a global community, 
underpinned by a global economy. The world is interconnected in 
every way: climate, environment, economy, security. And I am 
not sure we always take that into consideration when we are 
debating, passing laws, making regulation, and doing the things 
to move this country forward. Sometimes we are too insulated, 
and we will pay a price for that.
    Chairman Cummings. I am going to recognize Ms. Ocasio-
Cortez for a unanimous consent request.
    Ms. Ocasio-Cortez. Thank you, Mr. Chair. Just very briefly, 
since there seems to be some confusion on how climate change is 
connected to immigration patterns, I seek unanimous consent to 
submit to the record this article from the New Yorker on how 
climate change is fueling the U.S. border crisis, particularly 
in Guatemala. The question is no longer whether someone will 
leave but when.
    Chairman Cummings. Without objection, so ordered.
    Ms. Ocasio-Cortez. Thank you, Mr. Chair.

    [The New Yorker article referred to is available at: 
docs.house.gov.]

    Chairman Cummings. Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Secretary Hagel, who is on the President's task force, this 
council? Who are the members?
    Mr. Hagel. I have no idea.
    Mr. Jordan. You do not know?
    Mr. Hagel. The President's task force on----
    Mr. Jordan. Yes, we have been talking a lot about it. I 
just was curious who is on it.
    Mr. Hagel. I do not know. I said in my statement I do not 
now.
    Mr. Jordan. Do you know when the Executive order was issued 
to form the task force?
    Mr. Hagel. No.
    Mr. Jordan. That is because there was not one.
    Mr. Hagel. I do not know. All I know----
    Mr. Jordan. There was no executive order issued to form a 
task force. There is no task force that exists, and, therefore, 
there are no members on the task force.
    Mr. Hagel. Well, there is certainly a lot of conversation 
evidently going on in the White House about it.
    Mr. Jordan. Let me ask you this----
    Mr. Hagel. It was picked up by the press reporting it.
    Mr. Jordan. Do you agree with your colleague, Senator 
Kerry, Secretary Kerry, in his testimony just a few hours ago 
when he read his testimony, he said, ``It is a council of 
doubters and deniers.'' Is that accurate?
    Mr. Hagel. Secretary Kerry just handed me a draft of the 
President's Executive order setting up this task force. Maybe 
we should include----
    Mr. Jordan. I have got the draft in front of me. I have 
seen that. It is a draft. It has never been done, never been 
executed, no one has been appointed. So I am just curious how 
the Secretary----
    Mr. Hagel. Well, it should not be, and I hope it is not.
    Mr. Jordan. Well, that is no my question. My question is: 
Do you agree with what Secretary Kerry said when he said, ``It 
is a council of doubters and deniers''?
    Mr. Hagel. I do not know who the council is. I have already 
told you that. I do not know who it is.
    Mr. Jordan. That is the point. We have had a three-hour 
hearing talking about this council----
    Mr. Hagel. I think you should direct your question to 
Secretary Kerry.
    Mr. Jordan [continuing]. that is yet to be formed.
    Secretary Hagel, are emissions up or down for the United 
States over the last 15 years?
    Mr. Hagel. They are down.
    Mr. Jordan. Down.
    Mr. Hagel. Yes.
    Mr. Jordan. Earlier, both of you talked about market 
forces. It is amazing to me that emissions are down in spite of 
the fact that we had the first Green New Deal, the loan 
guarantee program in the Obama Administration, that gave 
millions and millions and millions of dollars to all kinds of 
companies, and almost every single one of them went bankrupt. 
And yet, still, somehow the market figured out a way to drive 
emissions down.
    Mr. Hagel. Well, I think President Obama may have----
    Mr. Jordan. Is that--do you----
    Mr. Hagel. I think President Obama may have had something 
to do with that, too, and a Congress recognizing what the 
issues are and the seriousness of the issues.
    Mr. Jordan. I will tell you about market forces. Market 
forces said Solyndra got a bunch of our taxpayers' money, folks 
from the 4th District of Ohio, and went bankrupt. That was 
market forces. Beacon Power got a bunch of taxpayer money, some 
of it from the citizens of the 4th District of Ohio, went 
bankrupt. Abound Solar went bankrupt. Fisker Automotive went 
bankrupt after receiving tons of taxpayer money. That is market 
forces. And in spite of those companies, which were the end-
all, be-all, save-all, emissions went down because the market 
did it--something you both talked about.
    Mr. Kerry. Not just the market, Congressman. The fact is we 
put in place the strongest CAFE standard----
    Mr. Hagel. The Obama Administration----
    Mr. Jordan. I was talking to Secretary Kerry. Is the Green 
New Deal, Secretary Hagel, is the Green New Deal bipartisan?
    Mr. Hagel. I do not know. I told you before in my comments 
in responding to the Green New Deal question, I do not know 
about it other than what I have read in the paper. I do not 
know who is cosponsoring it. I do not know the details of it.
    Mr. Jordan. Well, both of you have talked a lot--and I 
agree with this. Both of you have talked about de-politicizing 
this issue. Both of you have talked about working in a 
bipartisan fashion. The Green New Deal has got 91 Democrat 
cosponsors, 13 Democrat Senators, not one Republican.
    Mr. Hagel. Take that up with the Congresswoman, not me.
    Mr. Jordan. No, I am just asking your thoughts. Would you 
define that as bipartisan?
    Mr. Hagel. I am not here to defend that bill or testify 
about it.
    Mr. Jordan. Well, you made----
    Mr. Hagel. You talk to your Congress----
    Mr. Jordan. You have made that clear several times.
    How about the statement, do you--I want to go back to--do 
you agree with what Secretary Kerry said, that the council is 
made up of doubters and deniers?
    Mr. Hagel. I said I do not know who is on the council.
    Mr. Jordan. So is it an accurate statement? If we do not 
know who is on the council--in fact, we not only do not know 
who is on the council, there has been no council formed. How 
can you conclude it is a council of deniers and doubters?
    Mr. Hagel. Take that up with Secretary Kerry.
    Mr. Jordan. Secretary Kerry?
    Mr. Kerry. I made it clear in the beginning----
    Mr. Jordan. I am asking the Honorable Secretary a question.
    Mr. Kerry. I made it clear in the beginning that the 
prelude to the actual language of the draft Executive order, 
which was obviously leaked by somebody who was deeply concerned 
about it, said very clearly that it claims to authoritatively 
link climate change. It is----
    Mr. Jordan. I am not asking about the Executive order. I am 
asking about what you told us three hours ago. You said 
definitively, you said----
    Mr. Kerry. The names----
    Mr. Jordan [continuing]. it is a council of doubters and 
deniers, and I am just asking the fundamental question: How can 
it be a council of doubters and deniers when it has not even 
been formed?
    Mr. Kerry. Well, it would be. Congressman, you are 
quibbling. It would be.
    Mr. Jordan. It would be.
    Mr. Kerry. Clearly----
    Mr. Jordan. Now we know you can foretell the future. That 
is----
    Mr. Kerry. No, because there are several names that have 
been also leaked about the people who have been approached with 
respect to membership on this, and so, you know, I can submit 
their names if you really want that. But I do not think it is 
necessary. For my judgment to be made, it was made on the basis 
of Mr. Happer's experience, his background, his lack of being a 
climatologist, and various other statements he has made 
publicly, including----
    Mr. Jordan. I am not here to defend Mr. Happer. I am just 
asking about a simple statement you made. You already know who 
is on the council----
    Mr. Kerry. I stand by my statement.
    Mr. Jordan [continuing]. you already know--well, I know you 
stand by your statement.
    Mr. Kerry. The purpose of this council----
    Mr. Jordan. You already know who is on the council, and you 
already know the conclusions they are going to reach, even 
though there has been no council formed----
    Mr. Kerry. No, I do not know--I do not know----
    Mr. Jordan [continuing]. and no Executive order creating 
the council in the first place.
    Mr. Kerry. I do not know at this point in time who all the 
members are. I know enough members, and I know the purpose of 
it, and I know with clarity what it is doing. What is the 
secrecy about it? Why don't they ask some of the top people in 
the country----
    Mr. Jordan. There is no secrecy about it because it has not 
been formed.
    Mr. Kerry. Well, come on. You are playing games now, Mr. 
Ranking Member.
    Mr. Jordan. No, I am not. You are playing games.
    Mr. Kerry. Yes, it is really----
    Mr. Jordan. You are taking all kinds of latitude with an 
Executive order that has not been issued.
    Mr. Kerry. No. I am hoping it never will be issued----
    Mr. Jordan. I guess I am out of time.
    Mr. Kerry [continuing]. and I trust that because I and 
others have raised this issue about it, 58 national security 
concerned people, that this will never be issued because it 
does not deserve to be----
    Mr. Jordan. Maybe you are right. Maybe you are right. I do 
not know.
    Mr. Kerry. Well, it could be that they have been warned off 
by this hearing and by other things.
    Mr. Jordan. I just think we have had three hours of talking 
about something that has not even been formed.
    Chairman Cummings. Ms. Wasserman Schultz? Ms. Wasserman 
Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Mr. Secretaries, it is good to see you both, and thank you 
both for your real serious devotion to making sure that we can 
actually get the facts out about global warming and climate 
change.
    Secretary Kerry, I do just want to point out--this is not 
what I intend to ask you about, but I do want to point out that 
if we are going to talk about the so-called White House Panel 
on Climate Change, that apparently it has been widely reported 
that William Happer has been spearheading the proposed White 
House Panel on Climate Change, and he believes that CO2 has 
undergone decade after decade of abuse for no reason, and that 
he has compared carbon dioxide similarly to the treatment that 
Jews received under Hitler.
    So would you say that it is legitimate to suggest that 
someone spearheading a proposed White House Panel on Climate 
Change that had those beliefs perhaps was a doubter or someone 
who had no idea what they were talking about?
    Mr. Kerry. Obviously, for sure, which is what we said 
earlier.
    Ms. Wasserman Schultz. Okay. So, Mr. Chairman, I have an 
article here from Vanity Fair that describes the individual, 
Mr. Happer, which I would like to ask unanimous consent to 
enter into the record.
    Chairman Cummings. Without objection, so ordered.
    Ms. Wasserman Schultz. Thank you.

    [The Vanity Fair article referred to is available at: 
docs.house.gov.]

    Ms. Wasserman Schultz. Now, to ask you both--I want to 
thank you both for being here. President Trump and his 
appointees really have seemed intent on casting doubt on the 
science of climate change, and they are joined by our 
colleagues, unfortunately, on the other side of the aisle. 
There is already a consensus on climate change. The Federal 
Government's definitive statement is the National Climate 
Assessment. The assessment represents the consensus view of 13 
Federal agencies and more than 300 experts from Federal, state, 
and local governments, universities, and the private sector. 
The entire 1,500-page report was peer-reviewed by the National 
Academies. This document represents the zenith of current 
scientific understanding of the dangers of climate change. The 
report said that climate change will have a startling impact on 
the American economy, costing us hundreds of billions of 
dollars per year by the end of the century.
    I see this happening at home in South Florida as well where 
properties are sinking into the sea, beaches are eroding, and 
algae blooms get worse every few years. It is disappointing but 
not surprising that President Trump, who has repeatedly 
demonstrated an irrational hostility toward science, disbanded 
the advisory committee that provides guidance to the Government 
based on the assessment.
    So Secretary, both Secretaries, do you agree that the 
National Climate Assessment went through a rigorous scientific 
review process?
    Mr. Hagel. Yes, it did.
    Ms. Wasserman Schultz. Secretary Kerry?
    Mr. Kerry. Yes.
    Ms. Wasserman Schultz. Do you agree the assessment 
represents a consensus view on the science of climate change?
    Mr. Hagel. Yes.
    Mr. Kerry. Yes.
    Ms. Wasserman Schultz. Do you know of any reason why the 
American public should not trust the results of the assessment?
    Mr. Hagel. No.
    Mr. Kerry. No. I don't either.
    Ms. Wasserman Schultz. Thank you. Now I chair the Military 
Construction Veterans Affairs Appropriations Subcommittee. And 
so I have a very specific understanding how the Department of 
Defense has been struggling with the consequences of extreme 
weather, and it's taking a toll.
    The Air Force is looking for $5 billion to restore Tyndall 
Air Force Base, in my home state of Florida. Offutt Air Force 
Base, in your home state of Nebraska, Mr. Secretary, has been 
devastated by historic flooding along the Missouri River. It 
drowned a third of Offutt under water. Hurricane Michael 
bulldozed Tyndall Air Force Base. The marines need more than $3 
billion to restore Camp Lejeune after Hurricanes Florence and 
Michael tore through North Carolina.
    Secretary Hagel, you understood the criticality of missions 
at Offutt as secretary, but you also represented the base as a 
senator, and you know better than most what the consequences of 
record flooding there could entail.
    The new U.S. Strategic Command, STRATCOM, headquarters was 
built on higher ground because they were aware of some flood 
risk, albeit probably not the extent that what actually 
occurred. There were levees that were ultimately breached, but 
those levies gave the air force time to prepare for the flood.
    Secretary Hagel, what if someone convinced STRATCOM that 
there was no threat of flooding? What if they were told there 
was no need to build levees or come up with flood evacuation 
plans? What if they built STRATCOM on lower ground in harms 
way, and it was knocked out by the flood? What if someone 
directed DOD to ignore the risk? What would the mission 
consequences be, and how would an incident like that impact our 
national security?
    Mr. Hagel. Well, reality is reality, and when the base was 
built many, many years ago, and upgraded, and those dikes were 
built, and upgraded, it was anticipation of flooding, not 
historic. I mean it's biblical----
    Ms. Wasserman Schultz. Right.
    Mr. Hagel [continuing]. proportions.
    Ms. Wasserman Schultz. Right.
    Mr. Hagel. But it was never intended it would be that bad. 
But they knew, 20 years ago they knew. When I was in the 
Senate, I remember talking then with Defense officials at Offit 
about the possibility of devastating flooding. They weren't 
prepared. They had dikes built. But what happened this time is 
something that the people out there and in the Pentagon had 
considered possible with the climate change and the environment 
changing.
    John Kerry said something exactly right on this. The rate 
of change, the rate of destruction that we're seeing around the 
world in every way, flooding, hurricanes, typhoons, wildfires, 
we didn't even anticipate even close to that, knowing that we 
had to anticipate something.
    So we've got to factor this into future planning, and build 
accordingly. Probably what it is going to mean is some bases 
are going to have to be changed, moved, or in some way 
adjusted, because the seriousness of this is not going to go 
away.
    Ms. Wasserman Schultz. And I know my time has expired, Mr. 
Chairman, but I will just note that all of those provisions 
that were prepared, were prepared based on climate science.
    Mr. Hagel. Yes.
    Ms. Wasserman Schultz. Actual hard data. Thank you. I yield 
back the balance of my time. And thank you both for your 
service.
    Mr. Grothman. Thank you.
    First of all, Secretary Kerry, I just want to point out 
something that I do not feel was accurate, or at least implied 
as inaccurate, that you said leading off today, particularly 
with so many children around.
    You started off by saying during the cold war no one in 
public would have been taken seriously if they did not offer a 
policy to counter the Soviets. I am old enough to remember a 
lot of the cold war. I am old enough to remember tens of 
thousands of people marching ``Ho, Ho, Ho, Ho Chi Minh,'' who 
clearly wanted victory for the Atheistic Totalitarians who 
lived in North Viet Nam. And I remember a lot of politicians 
kowtowing to those people at the time, and eventually they kind 
of got their wish when they defunded the war, and we had over a 
million people die in Cambodia, and all the churches shut down 
in South Viet Nam.
    And I just think it is something for any of the young 
people listening here, they ought to look into all of the 
politicians who seem to be on the other side at that time of 
our history.
    Now I want to talk to you a little bit about being open-
minded, Secretary Kerry. I mean I am old enough to remember--
just as I remember people who wanted the United States to lose 
in Viet Nam, I am old enough to remember experts being quoted 
in Newsweek or Time in the 1970's about global cooling.
    And at the time we were assured by people who were experts 
in the field that food production was going to go down, and we 
were going to have huge problems because of it by the turn of 
the century. So when that did not happen, it kind of makes me a 
little bit skeptical, and I don't always believe everything 
any, I'll call them global alarmist, says.
    I know that over 20 years ago there were experts before the 
United Nations who talked about if we didn't do something 
within 10 years this global warming thing would be a disaster, 
and we couldn't turn back from that. That was back in 1989, and 
those global alarmists have since proven to be false.
    I have with me here an article that appeared in the 
Financial Post a couple years ago strongly questioning your 97 
percent figure, and they say that among the American 
Meteorological Association it is way under that figure. There 
are all sorts of people who believe that global warming or 
manmade global warming doesn't exist.
    How much do you, Secretary Kerry, do you ever interact with 
people who don't share your worldview here, particularly, 
because so many times in the past the alarmists have proven to 
be wrong? Do you ever show up with them?
    I know today we set up a situation which have two 
likeminded people testifying before us, which is very 
unfortunate. But do you ever spend any time dealing with these 
people who may have a different view than your own, people who 
maybe predicted all along we wouldn't have a disaster by the 
year 2000?
    Mr. Kerry. I have spent a lot of time with a lot of people 
who have different points of view on many different issues. I 
seek them out, and I spend time trying to examine my own issues 
versus theirs. Sure.
    Mr. Grothman. Have you read articles, you know, that----
    Mr. Kerry. Yes, I have. And I have talked to many--I have 
talked to, you know, people who allege that climate change 
isn't as bad as it thinks, and why they think it, and----
    Mr. Grothman. I encourage you to keep doing it. I encourage 
our chairman to have another hearing in which we are able to 
bring in people who maybe don't--have another opinion other 
than yourselves. Like I said, I'd like to put into the record 
an article in the Financial Post that strongly----
    Mr. Kerry. Let me just say to you, Congressman, I have 
spent now----
    Mr. Grothman. No. That's Okay. I only have a limited amount 
of time, and I'd like to yield the rest of my time to my good 
friend from Kentucky, Thomas Massie.
    Mr. Massie. Thank you, Mr. Grothman.
    People ask me is the next generation going to be better or 
worse off than our generation. And I think it's a crazy 
question. Of course, they're going to be better off, because 
you've got engineers, and entrepreneurs, and inventors laboring 
in a system of free markets, capitalism, and strong 
intellectual property. And so for politicians to sit here and 
take credit for solar power is a little bit like the rooster 
taking credit for the sunrise.
    But I think we're on the verge of, in our lifetimes, we are 
going to have an energy revolution, and it's going to be 
because of those entrepreneurs. And our job here is not to 
screw that system up, because if we do, there is going to be 
suffering.
    I mentioned before that China has installed a lot of solar 
in the past few years. They have capped it now, because there 
are technological limitations. You put any more on their grid 
it's going to destabilize it, and we're going to be in the same 
situation soon, and that's why we are waiting on a better 
battery. Right now it takes 30 cents a kilowatt hour to put 
power in and take it back out. Nobody's going to pay that.
    So that's what we're facing now. We need a technological 
breakthrough. We don't need another government program, and the 
free market will do that.
    Thank you, I yield back.
    Chairman Cummings. Mr. Gomez.
    Mr. Gomez. Thank you, Mr. Chairman.
    I said also, not on just Oversight, but I also said on the 
Committee of Ways and Means, when it comes to this 
Administration, I notice a reoccurring theme. They view the 
practice of transparency as a nuisance. Whereas most Americans 
see transparency as essential to our democracy, this 
Administration responds to oversight requests as if they are 
Presidential harassment.
    So I'm not surprised that I've heard reports that the White 
House could structure their proposed climate panel to avoid the 
requirements of the Federal Advisory Committee Act, or FOCA. 
FOCA requires committee meetings and records to be open to the 
public. So if the White House conducts their panel, their 
climate change panel in secrecy, the public would have no idea 
whether the panel was meeting with fossil fuel lobbyists or 
campaign donors.
    Secretary Hagel, do you agree that any White House 
committee on climate change should be open and transparent?
    Mr. Hagel. Yes.
    Mr. Gomez. FOCA also requires committee membership to be 
``fairly balanced in terms of the points of view represented 
and the functions to be performed.'' Avoiding FOCA would make 
it easier for the White House to stock the panel with climate 
change deniers.
    Secretary Hagel, do you think a panel made up entirely of 
individuals who do not believe in climate change is likely to 
make any meaningful recommendations about climate science or 
policy?
    Mr. Hagel. No.
    Mr. Gomez. In contrast, the National Climate Assessment was 
developed through a process that was entirely in public view. 
The assessment represents the consensus view of over 300 
experts from both government and the private sector, and was 
peer-reviewed by the National Academies of Science, 
Engineering, and Medicine.
    What's more, the author conducted a ``series of regional 
engagement workshops that reach more than 1,000 individuals and 
over 40 series.'' The author also had listening sessions, 
webinars, and public comment periods to receive input from 
Americans from all walks of life.
    Secretary Hagel, based on reporting so far, is it fair to 
say that the proposed White House panel may be far less 
transparent than the National Climate Assessment?
    Mr. Hagel. Well, what we know, but we don't know anything 
yet. There's no executive order, as Mr. Jordan has pointed out, 
so we don't know what we've got.
    Mr. Gomez. Okay.
    Mr. Hagel. So it's all speculation on everyone's part.
    Mr. Gomez. Given that the National Climate Assessment was a 
result of a transparent process, has it already been peer-
reviewed as a non-transparent White House panel likely to add 
value?
    Mr. Hagel. Is it--I'm sorry?
    Mr. Gomez. Would the panel add value if it's not 
transparent and open to the public for review?
    Mr. Hagel. I don't believe so, because there will be a 
question of trust and confidence in the panel, the makeup, if 
it's not transparent.
    Mr. Gomez. And I'm also concerned that the White House 
climate panel will be no different than the Vice President Dick 
Cheney's energy taskforce, which was famously--held secret 
meetings with oil companies, lobbyists, and republican donors. 
Perhaps, unsurprisingly, the Cheney taskforce recommended 
giving handouts to oil and gas companies.
    Secretary Kerry, should we be concerned that the White 
House climate panel would cater to the oil and gas industry 
like the Cheney taskforce did?
    Mr. Kerry. Well, I think it is one fair concern.
    Mr. Gomez. Doesn't the public have a right to know who's on 
the panel and who's meeting with it, and how they would arrive 
at their conclusions?
    Mr. Kerry. Absolutely.
    Mr. Gomez. One of the things I asked to--I was trying to 
get the ranking member to yield to me, because I think a fair 
request is if any panel that's conducted by this administration 
should meet the FOCA requirements. Do you agree with that 
statement?
    Mr. Kerry. I do.
    Mr. Gomez. And before I end, I just want to kind of make a 
statement. We've heard a lot of criticism from our republican 
colleagues about the Green New Deal. The Green New Deal is a 
bold and ambitious at its goals. It doesn't really stipulate 
how to get there. But I believe it has to be ambitious. Decades 
of inaction on climate change have put our country in a 
position where we need bold action.
    Just like our Nation's infrastructure. The more it decays, 
the more it falls apart, the more costly it becomes. We dealt 
with that in California, and we're paying the price for it.
    If Congress had taken steps years ago when the climate 
science was clear, you know, we would be able to just have 
incremental changes. California started on this path almost 15 
years ago. Many more years ago actually if you've taken, you 
know, the gas--our tail pipe emissions standards, and the like. 
So being bold is just to make up for the lack of urgency that 
previous administrations, previous Congresses failed to really 
address this issue.
    So I know there will be a lot more discussion on this 
topic, but I want to just say that we believe that we need to 
act now for future generations.
    And I thank you, and I yield back.
    Chairman Cummings. Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, ranking member, members 
of the committee. Thanks for the opportunity to share my 
thoughts and pose a few questions to the witnesses.
    And first, let me apologize, if I have any excess emotion 
over my normal level, I just returned from an internment of a 
special operator over at Arlington who died in Syria. He is 
from my district. I represent Fort Campbell, Kentucky area.
    I think everyone here recognizes that our planet is an 
amazing place, and while we should look at all the climate 
theories with a critical eye, we can all admit that we can harm 
our planet, and we should always cleanup after ourselves, and 
we should focus ourselves on sustainability, as our farmers 
have for many years.
    My concern for this briefing is that we are focusing on the 
wrong agency, particularly to address these concerns. And let 
me explain what I mean if I were to ask our witnesses the 
purposes of the Department of Defense, I assume they would 
answer it, ``Sir, it is to defend our Nation against all 
enemies and war, and to deter war through strength.'' With that 
purpose in mind, we could also ask the question that is there's 
$1 in the budget spent on, say, climate research or excessive 
costs of energy, that is a dollar that is not spent on flight 
training, or tank maintenance, or weapon marksmanship, or ship 
readiness.
    If I ask that, I'm certain that the witnesses would agree 
that if we spend a DOD dollar on non-warfighting capability, it 
decreases the potential of our warfighting capability.
    Since this hearing is about the national security 
ramifications of climate change, I assume a possible scenario 
that the witnesses might propose or would be concerned about 
are the potential wars that might be started after famine or 
other natural disasters allegedly caused by climate change.
    But let's think about what that means. The end result is 
potentially war. And there's one department in the U.S. 
Government that exists about determining when those wars, 
should they happen, shouldn't we then let them use all of their 
resources to train to deter war, and win it, if necessary. And 
I say yes.
    I propose some non-hypothetical questions. These are not 
hypotheticals. This is just the current assessment in the open-
source information about where our military is. I ask the 
question how many fighter pilots are we short in the United 
States military. It's not classified. It's well over 1,000.
    How many ships are we short if we go back to winning the 
two strategies as opposed to the current strategic imperative 
of one contingency, and deter another contingency? If we go 
back to winning two simultaneously, and if this is such a great 
crisis that's going to produce those needs for military, we 
should go back to that two scenario--how many ships are we 
short? Fifty-six.
    What's the percentage of our combat battalions at the top 
line of readiness? Again, open-source information. Thirty-three 
percent. Thirty-three percent.
    What's the average age of our aircraft? Twenty-eight years. 
The oldest in the history of the United States.
    Mr. Secretary, let me just tell you, when I went to war in 
2003 and 2004, our force was second to none, and it was 
honestly an unfair fight. It was just an unfair fight. If we're 
preparing for some national security crisis second to climate 
change, it would be an injustice to send American's sons and 
daughters to war where they did not have the very best 
equipment, training, and leadership, and that costs money.
    In the business world we confront the opportunity costs of 
our decisions every day. To put it bluntly, the Department of 
Defense has one purpose, and that is to kill our enemies. Your 
use of the national security threats surrounding this issue 
prove my point. There are tigers in the world, and we need men 
and women that we train to fight those tigers to be elite at 
every level.
    Forcing them to spend money, forcing the department to 
spend money on anything but preparations to do their mission 
has the opportunity costs, and it's measured in tombstones in 
Arlington. We must not use a single dollar of the Department of 
Defense budget to address the climate change issue. And that is 
my statement for today, period.
    Mr. Chairman, I'd like to yield the remainder of my time to 
the gentleman from Kentucky, Mr. Massie--to the ranking member 
then, Mr. Chairman.
    Chairman Cummings. Ms. Norton?
    Ms. Norton. Yes. And I want to speak to the gentleman's 
notion that no money should be used for our military to combat 
climate change. First, I want to say how grateful I am for this 
hearing, Mr. Chairman. Congress as an institution has failed 
the American people by failing to do something about what I 
regard as the most important issue for our country and for the 
world today.
    I'm pleased that we have a select committee on the climate 
crisis, and that this committee has a new subcommittee on the 
environment. And I want to directly respond to this notion 
relating to the military with facts and figures that we have to 
face now. And my question really goes to the impact on national 
security of climate change, notwithstanding this 
administration, and some of my friends on the other side.
    The Defense Department itself has issued a report to 
examine the vulnerability of 79 military bases to climate-
related events. And they issue these sobering results, 36 bases 
are vulnerable to wildfires. Forty-three are vulnerable to 
drought. Fifty-three of our bases face recurrent flooding 
caused by sea-level rise and storm surges. That's the Defense 
Department speaking.
    Secretary Hagel, how does the vulnerability of our military 
bases to extreme weather impact national security?
    Mr. Hagel. Well, it's a centerpiece for national security, 
because not only does it affect the infrastructure, it affects 
readiness and preparation, just as we know from the destruction 
of Tyndall Air Force Base in Florida. Seventeen of our F-22s 
were damaged, some of them significantly damaged. They're out 
of the lineup now. Seventeen F-22s are out of the lineup 
because of the damage during that hurricane.
    Readiness affects the bases in North Carolina, Fort Bragg, 
and others, where they can't train. They've got to rebuild. 
They have to shift their people, and their structures, and 
their readiness, and their planning, and move those people to 
different places.
    And you could go on and on, the differences and the 
dynamics, and the results, and the consequences----
    Ms. Norton. That's very explicit, Mr. Secretary.
    Mr. Hagel. But it is very clear that planning--let me just 
finish. Planning for climate change is not some frivolous waste 
of time, a waste of money. It is essential to our troops and to 
their wellbeing, and the national security of this country.
    Ms. Norton. Thank you, Secretary.
    It is not coming. It is here. And that is why I cited those 
base statistics. And I want to cite some more, because of the 
effect on several of our military installations. Offutt Air 
Force Base, in your home state, Secretary Hagel, is the 
headquarters of the U.S. Strategic Command, which is 
responsible for nuclear weapons already hit by climate change.
    Tyndall Air Force Base took a direct hit from Hurricane 
Michael. That was the strongest storm on record of the Florida 
Panhandle.
    The Air Force estimates repairs will cost $3 billion. 
Hurricane Florence slammed North Carolina in September to cause 
massive damage to Camp Lejeune. California, the Vandenberg Air 
Force Base has experienced multiple wildfires, including one 
that delayed a satellite launch.
    Secretary Hagel, do you agree that climate change continues 
to change the costs of repairing our military facilities and 
will increase as we face more climate change?
    Mr. Hagel. Yes.
    Ms. Norton. What do the armed forces need to do to become 
more resilient to these climate change threats that they're 
already facing?
    Mr. Hagel. Well, they have to plan for the reality that we 
are going to have more. And they will be more severe. And that 
means probably having to relocate some bases, especially in 
Norfolk, for example, very vulnerable, our Atlantic Fleet, on 
the coast.
    But bases within those numbers, those statistics that you 
cited, are all going to have to be looked at and reviewed as to 
how serious it could--more, and probably more disastrous 
climate change events happen, and what would be done to those 
bases, and what would be the consequences if they didn't do 
anything, if they didn't move, or change, or dikes, or 
something.
    So this is reality. This is what they have to plan for.
    Ms. Norton. Your testimony has been very helpful, and I 
yield back.
    Chairman Cummings. Mr. Cloud.
    Mr. Cloud. Hello. Thank you for being here, continuing on 
with this, and for the time you've taken to be here for this 
committee.
    Is the world demand for energy growing or shrinking?
    Mr. Kerry. Growing. It will probably double in the next 15, 
20 years.
    Mr. Cloud. Right. And if the United States were to suddenly 
stop production of fossil fuels, where would the world get its 
energy?
    Mr. Kerry. Well, nobody is talking, I don't think--I mean 
we're not talking about stopping or use fossil fuels. We're 
going to use fossil fuels, as I said, for some time in the 
future.
    Mr. Cloud. Right.
    Mr. Kerry. The question is how, which one, and at what rate 
are we going to transition to try to hit a low carbon, no 
carbon economy by 2050.
    Mr. Cloud. I appreciate the fact that we need to look at a 
mixed energy portfolio, but there have been proposals out there 
that suggest that in the next 10, 12 years we need to get rid 
of fossil fuels.
    Generally speaking, do U.S. companies produce energy 
cleaner or more responsibly than those in developing nations?
    Mr. Kerry. Generally speaking, in developing nations, yes, 
absolutely. We put together a $100 billion fund in the Paris 
agreement, which was supposed to help those countries to 
leapfrog, so that they could develop, create stability, grow, 
but do so in a responsible way. And unfortunately, there's 
almost no money in the Green Climate Fund, is at $5 billion.
    Mr. Cloud. Well, you mentioned that we're, as you put it, 
not in the game as a Nation. But carbon emissions in the U.S. 
has decreased by 42 million tons in 2017. So it seems that 
we're one of the world's leaders in carbon emission----
    Mr. Kerry. We were. 2017 was a very good year. And as I 
mentioned earlier, in 2017, 75 percent of the new electricity 
that came online in the United States came from solar power. 
That's good. Unfortunately, this year we're going up again in 
terms of emissions, as is Europe and other parts of the world.
    So we've had a good year. We made some gains. But now we're 
moving in the wrong direction.
    Mr. Cloud. It seems to me that we're maybe moving in the 
right direction in the sense that a lot of our advancements 
have also been in the production of L&G.
    Mr. Kerry. In what?
    Mr. Cloud. L&G.
    Mr. Kerry. Yes, it has. Yes.
    Mr. Cloud. And in the sense of, we're talking about 
national security today, that if the amazing transition that 
our Nation is making from an energy-dependent nation to an 
energy-dominant nation is providing our allies and other 
nations across the world a new place to get energy. And to me, 
that's a national security win, a big national security win
    Mr. Kerry. Absolutely. Congressman, I advocated for energy 
independence for years, and I welcome it. It's fantastic. It's 
a great tribute to American ingenuity, to our technology, and 
people deserve credit for it.
    Natural gas is obviously a critical bridge fuel to help us 
create a virtuous grid, a smart grid, where we're minimizing 
our emissions. But, you know, some people are fighting to add 
coal to that. And that would be moving in the wrong direction.
    Mr. Cloud. Well, some people are also advocating that we 
get rid of fossil fuels in the next 10 years, and----
    Mr. Kerry. Well, yes. And I don't think it's possible to do 
it in the next 10 years, needless to say. But over the next 50 
years, 40 years, next 30 years, we have an incredible capacity 
to develop new fuels. And what we need to do is put enormous 
resources into mission innovation, enormous into consortium 
R&D.
    Maybe hydrogen will be a fuel of the future, if we could 
bring it to scale. It's flammable. It's got some problems. But 
if we can bring it to scale, it's possible to do that. Possibly 
battery storage is going to have a massive breakthrough, which 
would be a gamechanger all across the board.
    I have confidence in the future. What I'm afraid of is, as 
a country, we are not coming together, the Congress, the 
President, to push that future to create the incentives that 
will help it work.
    I mean why is it that in 2019----
    Mr. Cloud. I only have 40 seconds. I'm sorry.
    Mr. Kerry. I'm sorry. Okay. Go ahead. You've been very 
fair.
    Mr. Cloud. I agree with you that I think technology is the 
answer. I think the great huge push in something like the Green 
New Deal to shutter the progress we have made in energy, and 
that technological advancement is based on a thriving economy. 
That's how those advancements are funded, with market 
principles and such.
    And so a diverse portfolio that makes us a world's leader 
in energy I do think is the best way to go for national 
security. I think that's a bipartisan issue.
    We mentioned, you know, the importance of not taking crises 
and looking at them on the merits of the issues. I just ask in 
the context of national security, it's been said by our 
chairman here that the debt and the border are manufactured, 
are fake crises. Do you think that those two are real crises or 
fake crises?
    Mr. Kerry. That the what?
    Mr. Cloud. Both our debt and the issues going on with the 
border.
    Mr. Kerry. Our debt?
    Mr. Cloud. Our debt.
    Mr. Kerry. Yes.
    Mr. Cloud. And our border.
    Mr. Kerry. I think our----
    Mr. Cloud. Are those real or manufactured crises?
    Mr. Kerry [continuing]. debt is increasing, and moving in 
the wrong direction. And we're going to have an increasing 
deficit problem, I believe.
    I think we have a problem on the border. I wouldn't call it 
a crisis. I think there is an easy way to deal with it in a 
fair-minded way, and we are not being offered an opportunity to 
do that.
    Chairman Cummings. Thank you. Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman. Thank you, Secretary 
Kerry, Secretary Hagel for your service.
    Let me say I actually agree with my friend, Representative 
Jordan, about the history, that the Green New Deal isn't a new 
idea. Thomas Friedman wrote a whole column about it in 2007, 
and President Obama adopted part of it in his platform in 2008. 
I know. I served in his administration, far lower level than 
either of you. I was a lowly deputy assistant secretary at 
Commerce. But I was proud of the work.
    And Alexandria Ocasio-Cortez just came over. She's 
introduced the Green New Deal with new energy. But she reminded 
me that the Energy Department in the Obama Administration 
actually funded Tesla. And I know Representative Jordan wants 
to pick on the one or two things that didn't work.
    Let me tell you, in Silicon Valley you'd be going to 
Kleiner Perkins and saying, ``Well, you invested in all these 
wrong things. Oh, forget that you invested in Google.'' You 
know, we at least ought to talk about the things that 
succeeded.
    Now here's why Tesla matters, and I'd like both of your 
thoughts on this. China, as I understand it, has 50 percent of 
the market on electric vehicles. Fifty percent. And China is 
going to spend $450 billion on clean energy. And China right 
now has about 20 percent solar and wind. We are at 10 percent. 
They're projected by 2025 to be 41 percent.
    My question is this: Put aside even whether you believe in 
climate change or not, let's talk about a green energy race. Is 
there a single American, in your view, Secretary Kerry or 
Secretary Hagel, democrat, republican, I don't care what party, 
who believes that America should lose the green energy race to 
China?
    Mr. Kerry. I hope not.
    Mr. Khanna. Secretary Hagel?
    Mr. Hagel. I'd be giving the same answer. I hope not.
    Mr. Khanna. So let me ask this, and I just want to put in 
the record that the Green New Deal resolution doesn't say 
anything about getting rid of fossil fuels in 10 years. I 
certainly don't think 10 years is some magical number.
    But if you were going to be president of the United States 
in 2020, and Secretary Kerry, of course, you've run for 
president, and you were saying that a very simple promise to 
the American people, by 2024 or 2025, America will beat China 
when it comes to clean technology. That's it. We're going to do 
what it takes. What would you recommend that we need to do to 
make sure that we're ahead of China by 2025?
    Mr. Kerry. Well, first of all, I think it would be very 
exciting. I think that would be our moon shot, so to speak. I 
think it would be one of the great challenges that the American 
people would respond to, providing it was accompanied by a 
realistic set of proposals for how we do it, to begin with.
    As I said earlier, a massive commitment to technology R&D, 
reverse incentives. We ought to be providing incentives for--it 
has been a struggle. We managed to keep them temporarily, at 
least, on solar, wind, et cetera. But electric vehicles, we 
ought to be doing whatever is necessary to try to advance 
battery storage, battery capacity. That's going to be critical 
to leadership in the electric field.
    And there are a number of other incentives, I think we 
could put--energy efficiency. There are huge gains to be made 
in efficiencies. It's probably the lowest hanging fruit of the 
energy choices that we face. But R&D is the biggest single 
piece of this.
    Technology is what is going to do it, and if we put the 
right incentives in place, money is going to come pouring in 
from the private sector, because people want to be winners, 
whatever it's going to be, the next Sergey Brin, the next Bill 
Gates. That's what excites people's imagination. And this is 
the sector we ought to be doing it in.
    Mr. Khanna. Well, let me ask both of you this, a final 
question, because whether people agree or disagree with your 
particular ideology, I don't think anyone would question both 
of your patriotism and extraordinary service to the country and 
national security expertise.
    And if this president is right, that China poses the long-
term biggest strategic threat to the United States' 
competition, how critical do you think it is, from a pure 
national security perspective, that we win the energy race 
against China to maintain America's weight?
    Secretary Hagel.
    Mr. Hagel. Thank you. Let me answer the other question, and 
then I'll get to that question.
    Very simply, in addition to what Secretary Kerry said in 
answering your first question, smart government and regulatory 
policy, and let the market work. Those are the two big factors. 
Let the market work, because our market does produce better 
than anybody, and it's free. We have a nation of laws, the 
infrastructure, but the government and regulatory policy to go 
with it have to be smart.
    Now your second question?
    Mr. Khanna. How critical is beating China on energy to make 
sure America----
    Mr. Hagel. I think it's absolutely--no question. It's 
absolutely necessary, essential that this country not lose that 
race to China, because it affects not just this country, but it 
affects the world. It affects other countries and technologies 
that they will buy and they will use. We just can't afford to 
give that up. We must lead.
    Mr. Kerry. And while we're at it, Congressman, it is a very 
important question, it's critical that we also face up to the 
realities of what's happening with cyber. We need to make much 
more significant effort to create rules of the road in the same 
way that we reigned in the possibilities of nuclear 
confrontation in the 1950's, 1960's, 1970's, et cetera. We need 
to be working for much greater restraint with respect to cyber 
today. It's as big a threat as any of the other security 
challenges that we face.
    Mr. Khanna. Thank you.
    Chairman Cummings. Mr. Gosar.
    Mr. Gosar. Thank you, Mr. Chairman.
    Today's hearing proves that democrat leadership is tone 
deaf and out of touch with the issues that the American people 
actually care about. A hearing to threats of our national 
security should be focusing on the ongoing crisis at our 
Southern border, as opposed to the publicity stunt that we see 
here today.
    In fact, climate change has been changing all through the 
life of this planet. I've got a fossil right here from Western 
Wyoming, a desert, that once was under an ocean.
    Now on March 18, more than 125 scientists, climate experts, 
and leaders on energy and environmental issues sent President 
Trump a letter urging him to set up a commission to conduct an 
independent review of the fourth national climate assessment. 
Mr. Chairman, I ask permission to submit the letter for the 
record.
    Chairman Cummings. So ordered.

    [The Letter for the Record referred to is available at: 
docs.house.gov.]

    Mr. Gosar. Now Mr. Chairman, if the democrats are so 
confident that their fundamentally flawed report, written 
mostly by career bureaucrats under the Obama Administration, 
why are you opposed to having the science analyzed, and the 
report independently reviewed by a commission? If the science 
from the report is factual, then it should hold up under 
independent review, correct? But we all know the report was 
bogus, that it utilized computer models that predicted 
excessive warming, and negative impacts associated with 
increased warming were derived from highly unrealistic 
scenarios that surface temperature data was also manipulated.
    In fact, we're spending, as proposed by the Green New Deal, 
$93 trillion. You think you'd want to explore everything under 
the sun to make sure that it was right.
    Now I'm pleased that Representative Cortez actually showed 
up today. We actually had an opportunity with the Western 
Caucus for her to actually have a discussion with it. She 
initially RSVP'd, and then backed out a day before.
    Now for decades alarmists have been using scare tactics and 
false science to push environmental agendas. The Green New Deal 
is no more than rhetoric and the false narratives. On December 
13, 2009, former president candidate Al Gore citing so-called 
scientific reports predicted there was a 75 percent chance that 
the entire north polar ice cap could be completely ice free in 
five years.
    Mr. Kerry, is there any ice on the Arctic Cap today?
    Mr. Kerry. Yes, there is, but it's----
    Mr. Gosar. What it basically shows is there's flaws to 
predictability, and that's what I'm pointing out.
    Now according to the think tank data progress, the Green 
New Deal will ban plastic straws. Mr. Kerry, do you ban the use 
of plastic straws in America?
    Mr. Kerry. Do we what?
    Mr. Gosar. Do you support banning plastic straws in 
America?
    Mr. Kerry. I think it would be great to find a way to move 
on to a biodegradable straw, frankly. Yes, we should try.
    Mr. Gosar. Especially if they were nutritious.
    Secretary Hagel, you testified that you supported the Paris 
climate agreement in 2015. The U.S. was the world leader in 
carbon emissions reductions not just in 2017, but 2016 and 
2015.
    Further, from 2005 to 2017, the U.S. cut 62 million tons, a 
14 percent decline. Over the same period, global emissions 
increased by 26 percent, and China increased its emissions by 4 
billion tons. And India increased its carbon dioxide emissions 
by 1.3 billion tons, with a B, a 70 percent increase.
    Now I heard in the discussion earlier that we were going to 
incentivize people. Are we really going to incentivize India 
and China for best behavior? Really?
    Now with an estimated price tag of $93 trillion over the 
first 10 years, Admiral Mullen said that our debt is our 
biggest national security problem. At 93 trillion, that is even 
going to be worse. So we better get this right.
    Now the democrat socialists pushing the Green New Deal want 
to get rid of all energy sources, as quoted, except for wind, 
solar, and batteries by 2030.
    Mr. Kerry, how are we going to do that when wind and solar 
only produced 8.2 percent of our electric currently? And the 
reason why they're so far ahead of us in electric is they 
control this, they have a monopoly on rare earths. Where's the 
incentivization right here? This isn't a real plan, because we 
don't see that. This comes from the Mojave Desert out in 
Arizona. It's all over the desert. Yet, we have no ambition, 
whatsoever. We are anti-mining on the other side. We don't want 
to do any of this. So how are we going to do that when we allow 
China to be the monopoly? Batteries are the problem.
    Mr. Chairman, you know, I'd love to see the debate. That's 
how we actually discovered that the earth was not flat. We 
actually had people that said it was different, and they sailed 
to the far reaches, and found out that there was a planet. It 
was round.
    And I yield back.
    Chairman Cummings. Thank you very much.
    Mr. Steube.
    Mr. Steube. Thank you, Mr. Chairman. Secretary, Mr. 
Secretary, my questions are for Secretary Kerry.
    I just want to kind of drill down on, you know, we had a 
lot of discussion today about the Green New Deal, which would 
move America to 100 percent clean and renewable energy in 10 
years. You had stated that you want zero carbon emissions by 
2050.
    Mr. Kerry. Net. Zero net.
    Mr. Steube. Zero net. 2050.
    Mr. Kerry. Net means that you would have carbon in certain 
places, but you'd have offsets against it, so that you are net 
at zero. I know we can't do zero--I understand that. I've made 
that clear in my testimony, and I made it clear, certainly, 
with respect to the 10 years. But that is what scientists tell 
us we must achieve in order to have a balance globally with 
respect to the amount of carbon dioxide in the atmosphere.
    Mr. Steube. So I guess I'd like to ask if you were still in 
the U.S. Senate, then would you have voted against the Green 
New Deal if it were brought up for a vote.
    Mr. Kerry. Well, I'm not going to get--I learned long ago 
in the Senate not to do hypotheticals. And I'm not in the 
Senate, and I'm not voting, happily.
    But what I would say is this, that I know the difference, 
after 28 years in the Senate, between a serious effort to try 
to legislate something, and a political game that's going on.
    We just had a five-minute presentation about all the 
reasons we can't do this or that without any legitimate, you 
know, question or dialog. I understand how it's played. But the 
fact is----
    Mr. Steube. I'm asking you a question right now. I'm having 
a dialog. I'm asking you if you would vote for it. And I'll----
    Mr. Kerry. No. Where was the dialog?
    Mr. Steube. How about this? I won't give you a 
hypothetical.
    Mr. Kerry. Okay.
    Mr. Steube. Do you support moving America to 100 percent 
clean or renewable energy in 10 years?
    Mr. Kerry. It's a wonderful ambition to have. I don't think 
you can quite pull that off, given where we are. But I applaud 
the ambition. I applaud the notion that this is a serious 
issue, and we need to be dealing with it. And I would love to 
see what, you know, everybody else is proposing as an 
alternative, or as a better way of doing it.
    That's how we used to legislate here. We'd get together. 
We'd work on the legislation. We'd come up with something. It 
wasn't perfect. Neither side loved it, which is usually a good 
piece of legislation. That doesn't seem to happen now.
    Mr. Steube. Well, I agree with you. I haven't had a 
conversation with the other side, nor have they approached me 
to work with on issues.
    You had said that it would take enormous resources. In Ms. 
Cortez's fact sheet it says massive investment. Like, what type 
of dollars would you expect to make this transition to a 100 
percent clean and renewable energy?
    Mr. Kerry. Well, it depends over what period of time you're 
talking about.
    Mr. Steube. Well, hers is 10 years. And the facts say 35 
trillion to $70 trillion.
    Mr. Kerry. There are estimates.
    Mr. Steube. My question to you would be, is: How are we as 
Americans going to pay for this transition to no fossil fuels?
    Mr. Kerry. Well, we make choices all the time legislating 
around here in the budget. If this is, indeed, a national 
security crisis, which I hope a consensus will finally agree on 
at some point in time, and people are dying today, and billions 
of dollars of property damage are occurring today, and the vast 
majority of scientific evidence is indicating that if we don't 
take steps, we're going to pay a lot more, in the high 
trillions. If we have a .5-degree increase in the earth's 
temperature in the next 12 years, it could cost us, I am told, 
$54 trillion. If we go up to two degrees, it could cost us 69 
trillion.
    Mr. Steube. Well, I haven't seen anything that----
    Mr. Kerry. You better start making a judgment about what 
we're prepared to invest in to avoid catastrophe and avoid 
these large expenses----
    Mr. Steube. I just don't see how you're going to pay for 
$70 trillion when we have $22 trillion in debts, and all the 
other problems that we have in our country right now.
    Mr. Kerry. Well, we're the richest country on the face of 
the planet, and we have to begin to decide what we're going to 
invest in that is important or not. We can bend the cost curve 
in healthcare, believe me, in big ways. We're spending more 
money than any other country in the world on healthcare, and we 
get worse results than about 26 other nations. We could make 
that better.
    We could gain some ability to put some money into other 
things. Infrastructure can pay for itself in many different 
ways.
    Mr. Steube. Well, I do not see how any of these natural 
disasters are directly scientifically related to climate 
change. I represent the state of Florida, and we----
    Mr. Kerry. Well, I am sorry you do not, but----
    Mr. Steube. Irma came through my backyard, in fact. We were 
without power for a week. We had hurricanes----
    Mr. Kerry. Well, scientists----
    Mr. Steube. I remember growing up and having hurricanes in 
the state of Florida.
    Mr. Kerry. And I experienced them as a kid.
    Mr. Steube. I am the one with my time here. I do not see 
any scientific evidence that says that because we had Hurricane 
Irma that came through my district and devastated the citrus 
growers in my district, that that is related to half a 
millimeter, half a rise in the ocean's rise or a degree change 
in the climate from last year, and I do not see that.
    With that I would yield--well, I am out of my time. Thank 
you, Mr. Chairman.
    Mr. Kerry. The evidence is, and scientists will back this 
up, that because the oceans are warming at a rate 40 percent 
faster than they were--40 percent faster than any time recorded 
previously, there is increased moisture that is going into 
storms because of the warming----
    Mr. Steube. So how would us curbing our CO2 emissions, when 
China and India are not doing anything to curb theirs, make any 
difference globally?
    Mr. Kerry. Actually, that is a legitimate complaint. If 
others do not also reduce, we are all cooked. The question is 
who is going to lead? Who is going to step up and show how this 
can happen?
    Mr. Steube. We are leading. Ours have gone down over the 
last several years.
    Mr. Kerry. Well, I am not----
    Chairman Cummings. Mr. Roy, your time is running.
    Mr. Roy?
    Mr. Roy. Okay, starting out. Thank you, Mr. Chairman.
    I am going to yield for 30 seconds to my friend from 
Kentucky.
    Mr. Massie. I have a quick question that does apply to 
national security and foreign policy and relates to energy. 
Germany earlier this year announced they are going to phaseout 
all of their coal production. Is that not really a commitment 
to Putin and to Russia? Because, as you mentioned, Secretary 
Kerry, they have to have those peak plants, they have to have 
natural gas, and unless the American taxpayer is ready to 
subsidize gas companies in the United States to export that to 
Germany, really Germany is going to be more dependent on 
Russia. And I do believe you are qualified also, Secretary 
Hagel. You are both qualified to answer that question.
    Mr. Kerry. That is true, and it is a concern, and that is 
why we oppose the Nord Stream Pipeline. We thought it was a 
mistake and we were concerned about the security implications.
    Mr. Roy. Secretary Hagel, do you want to quickly respond?
    Mr. Hagel. Yes. I would not add anything to John's comment. 
The only thing I would say is what John's last point was. We 
have opposed this, and we have been working with the Germans 
trying to explain to them what is down the road here if you 
make yourself dependent that way on Russia.
    Mr. Massie. That is just the downstream consequence of 
their commitment to reducing CO2, and it is geopolitically 
unstable.
    Mr. Roy. I appreciate that. And thank you for being here, 
Secretary Kerry, Secretary Hagel. I apologize for being a 
little bit late. I took my dad, a Texas Tech alum, to 
Minneapolis last night, which would seem like a magnanimous 
gesture for a son to his father, except that I went to the 
University of Virginia. So we had a nice family experience last 
night. But I appreciate you all's time here today.
    I would have liked to have been here a little bit more, and 
I will followup with some questions. I just wanted to followup 
on the question of could you be more specific about the timing 
at which you think the earth is at a particular level of risk 
based on the current trajectory? I would like just a quick 
answer.
    Mr. Kerry. Well, I base my judgment on the science. I am 
not a scientist but I have read as much as I can, studied it, 
worked with a lot of people, and my judgment is that if the 
scientists are telling us that you have 12 years within which 
to try to prevent the 0.5 additional degrees of warming, to 
bring us to 1.5, we want to try to avoid it. Is that going to 
be the end of the earth? No. But it is going to be profound 
changes in how we live on earth, and in crises, and that will 
take us up closer to the 2 degrees.
    The problem we have is right now we are on track to hit 
four or 4.5 degrees. That is unlivable. That is a different 
world from anything we have imagined.
    Mr. Roy. Reclaiming my time, let me ask this question. If 
that is as apocalyptic as some make it out to be, then do you 
support moving to a full nuclear strategy in order to avoid 
emissions?
    Mr. Kerry. A full what?
    Mr. Roy. Nuclear strategy.
    Mr. Kerry. I think it has to be one of the options, and I 
have advocated for fourth-generation modular and for some more 
R&D. I think there ought to be a government effort to try to 
help re-kindle the pipeline. One of the reasons nuclear is so 
expensive today, and in the program we have down in Carolina 
and Georgia, is that it is a one-off. Everything is a one-off, 
so it drives the prices up.
    Mr. Roy. If I could just----
    Mr. Kerry. It has to be part of the menu.
    Mr. Roy. Okay, good to hear, and I am glad to hear that.
    Do you also agree that moving to clean-burning natural gas 
is a step in the right direction, and that the emissions that 
we are reducing in the United States, that that is a benefit to 
the country----
    Mr. Kerry. Absolutely.
    Mr. Roy [continuing]. and liquefied natural gas being 
distributed around the world is beneficial both geopolitically 
for the United States and the world, and for the emissions that 
would go off in the atmosphere?
    Mr. Kerry. Absolutely.
    Mr. Roy. That is good.
    Do you also agree that the benefit to the world of 
abundant, clean energy is particularly important when we have 
upwards of 1 to 2 billion, depending on how you define it, 
people around the world who do not have access to the kind of 
power and resources and quality of life that we have? Would we 
agree to that?
    Mr. Kerry. Sure.
    Mr. Roy. And would we agree that you have life expectancies 
around the world that have risen dramatically where reliable 
access to energy has increased?
    Mr. Kerry. Yes.
    Mr. Roy. Right? And would we think it is probably immoral 
to deny Third World countries access to a better standard of 
living if we were to adopt policies that might negatively 
impact countries that do not have our standard of living by 
denying them access to power if we are perpetuating policies 
that would prohibit that access to power?
    Mr. Kerry. I would just change your formulation slightly. I 
believe it is important to get power, but it is important to 
get the right kind of power in the right mix with respect to 
that particular country so that you are not doing them worse 
downstream harm or contributing to the larger problem.
    Mr. Roy. I understand that, and I will finish with this, 
Mr. Chairman, my last question, which is just to say I happen 
to believe that the world has been extraordinarily made better 
by the abundant availability of fossil fuel energy in terms of 
the quality of life, in terms of hospitals that are powered, in 
terms of the tools and resources that we use, in terms of 
access to power to warm houses, air conditioning in the summer, 
in terms of life-saving technologies, babies being on 
incubators that are powered instead of bags like you have in 
certain countries around the world, and I would just suggest 
that we do not want to be following the line--and I will wrap 
up right now, Mr. Chairman--of Europe, where you have 54 
million people choosing between heating and eating because of 
prices increasing, because of policies that I think could be 
harmful. So I think that should be a part of our discussion.
    I thank you, Mr. Chairman.
    Chairman Cummings. No problem.
    I want to thank you all for your testimony today. You have 
given us four hours of your life.
    [Laughter.]
    Chairman Cummings. And I do not say that lightly.
    Mr. Kerry. It has been a life-changing experience, Mr. 
Chairman.
    [Laughter.]
    Chairman Cummings. But the fact is that you are here 
because you care about somebody other than yourselves. That is 
what this is all about. You are looking far into the future. 
Like I said, when we are dancing with the angels, hopefully the 
world will have benefited from what you are doing. I honestly 
and deeply appreciate what you are doing, and I encourage you 
to continue to do what you are doing. I had hope that our 
hearing would not be whether we had a problem--we have one--but 
how we would go about solving it.
    I do believe that minds will be opened, that we will get 
this done, because we have no choice, and that is my opinion.
    With that, I would like to again thank you all.
    Let the record show that, without objection, all members 
will have five legislative days within which to submit 
additional written questions for the witnesses to the Chair, 
which will be forwarded to the witnesses for their response.
    I ask our witnesses to please respond promptly, as you are 
able to.
    Just one last thing. I think it was Mr. Gosar who made a 
comment with regard to Ms. Ocasio-Cortez. He said that she 
rarely shows up, or something to that effect. I just want to 
correct the record. I have been here for every minute of every 
hearing, and she probably has the best attendance of any 
member. So I just wanted to put that on the record.
    Mr. Roy. I would concur, Mr. Chairman. I have seen our 
colleague from New York here regularly, so I agree with that.
    Chairman Cummings. Big time.
    All right. We are adjourned.
    [Whereupon, at 2:10 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
